<html>
<title> - H.R. 597 AND H.R. 1491</title>
<body><pre>[Senate Hearing 115-253]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 115-253

                         H.R. 597 AND H.R. 1491

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 25, 2018

                               __________

         Printed for the use of the Committee on Indian Affairs
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]         
         

         Available via the World Wide Web: http://www.fdsys.gov
                    
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
30-361 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6e091e012e0d1b1d1a060b021e400d010340">[email&#160;protected]</a> 
            


                      COMMITTEE ON INDIAN AFFAIRS

                  JOHN HOEVEN, North Dakota, Chairman
                  TOM UDALL, New Mexico, Vice Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JOHN McCAIN, Arizona                 JON TESTER, Montana,
LISA MURKOWSKI, Alaska               BRIAN SCHATZ, Hawaii
JAMES LANKFORD, Oklahoma             HEIDI HEITKAMP, North Dakota
STEVE DAINES, Montana                CATHERINE CORTEZ MASTO, Nevada
MIKE CRAPO, Idaho                    TINA SMITH, Minnesota
JERRY MORAN, Kansas
     T. Michael Andrews, Majority Staff Director and Chief Counsel
       Jennifer Romero, Minority Staff Director and Chief Counsel
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 25, 2018...................................     1
Statement of Senator Hoeven......................................     1
Statement of Senator Udall.......................................     2

                               Witnesses

Healy, Hon. Mike, Councilmember, City of Petaluma, California....    21
    Prepared statement...........................................    23
Kahn, Hon. Kenneth, Chairman, Santa Ynez Band of Chumash Indians.     6
    Prepared statement...........................................     8
Krauch, William ``Bill'', Chair, Santa Ynez Valley Coalition.....    26
    Prepared statement...........................................    28
LaCounte, Darryl, Acting Deputy Bureau Director, Office of Trust 
  Services, Bureau of Indian Affairs, U.S. Department of the 
  Interior.......................................................     3
    Prepared statement...........................................     4
Mejia, Hon. Marjorie, Chairperson, Lytton Rancheria of California    11
    Prepared statement...........................................    13

                                Appendix

Gore, Hon. James, Chairperson, Sonoma County Board of 
  Supervisors, prepared statement................................    39
Letters Submitted for the record by:
    Hon. Salud O. Carbajal, U.S. Representative of California....    42
    Hon. Doug LaMalfa, U.S. Representative of California.........    43
    Das Williams, Chair, Santa Barbara County Board of 
      Supervisors................................................    41
Santa Ynez Band of Chumash Indians, supplemental information 
  submitted for the record.......................................    43

 
                         H.R. 597 AND H.R. 1491

                              ----------                              


                       WEDNESDAY, APRIL 25, 2018


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m. in room 
628, Dirksen Senate Office Building, Hon. John Hoeven, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN HOEVEN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    The Chairman. Good afternoon. We will call this legislative 
hearing to order.
    Today the Committee will examine two bills: H.R. 597, a 
bill to take lands in Sonoma County, California, into trust as 
part of the reservation of the Lytton Rancheria of California, 
and for other purposes; and H.R. 1491, a bill to reaffirm the 
action of the Secretary of Interior to take land into trust for 
the benefit of the Santa Ynez Band of Chumash Mission Indians, 
and for other purposes.
    On January 20, 2017, Representative Denham introduced H.R. 
597, the Lytton Rancheria Homelands Act of 2017. The bill 
passed the House of Representatives on July 11, 2017, and was 
received by the Senate on July 12, 2017. H.R. 597 would take 
511 acres of land owned by the Lytton Band of Pomo Indians of 
California into trust for the benefit of the tribe.
    The Lytton Rancheria has spent years negotiating with the 
local county of Sonoma to form and approve a memorandum of 
agreement that would mitigate any potential off-reservation 
impact from land being moved into trust. The land, once in 
trust, would assist the tribe in further developing their 
economy and provide for additional housing.
    On March 10, 2017, Representative Lamalfa introduced H.R. 
1491, the Santa Ynez Band of Chumash Indians Land Affirmation 
Act of 2017. The bill passed the House of Representatives on 
November 28, 2017, and was received by the Senate on November 
29, 2017. H.R. 1491 would reaffirm the Secretary of Interior's 
decision to place 1,427.28 acres of California land in trust 
for the Santa Ynez Band of Chumash Indians, resolving years of 
litigation regarding the Secretary's decision.
    After negotiating over the county's concerns, the tribal 
and the local county of Santa Barbara have also entered into an 
effective memorandum of agreement. This MOA provides for the 
mitigation of potential impacts once the land is in trust.
    On January 18, 2018, Senators Feinstein and Harris 
requested this Committee hold a legislative hearing on these 
two California tribal bills. I look forward to hearing the 
feedback from our witnesses on both these pieces of 
legislation.
    With that, I will turn to Vice Chairman Udall for his 
comments.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you, Chairman Hoeven, for calling 
today's legislative hearing.
    As many of you know, Congress' enactment of the Indian 
Reorganization Act in 1934 marked a significant turning point 
in the Federal-tribal relationship. Through this Act, Congress 
sought to empower, rather than undermine, tribal governments. 
The authority of the Secretary to take land into trust is the 
crowning achievement of the IRA.
    This authority represented a clear rejection of the 
allotment era, when Indian tribes lost tens of millions, by 
some estimates hundreds of millions, of acres of their land in 
less than 50 years. The loss of a tribal land base decimated 
tribal governments and destroyed tribal economies.
    Since passage of the IRA, tribes have successfully restored 
millions of acres of homelands. That includes more than 500,000 
in the past eight years. I hope we stay the course. Indian 
Country deserves no les. That is why I remain concerned about 
the Department's proposal to revise its land into trust 
regulations, potentially placing additional hurdles in the way 
of tribes.
    The importance of tribal trust acquisitions cannot be 
overstated. After all, the authority to govern is rooted in the 
authority to exercise jurisdiction. The authority to provide 
safe refuge to tribal citizens, the ability to house tribal 
members and exercise jurisdiction, ensuring their well-being.
    I appreciate, as the opposition here today demonstrates, 
that not all trust acquisitions will be without controversy. 
But this legislation before us demonstrates what local 
governments and tribes can achieve through mutual respect and 
cooperation. I would like to thank the witnesses for coming 
here today. It is a long flight from California. Again, thank 
you, Mr. Chairman, for calling this hearing.
    The Chairman. Thank you, Vice Chairman Udall.
    With that, our witnesses today are Mr. Darryl LaCounte, 
Acting Deputy Bureau Director, Office of Trust Services, Bureau 
of Indian Affairs, U.S. Department of the Interior; the 
Honorable Kenneth Kahn, Chairman, Santa Ynez Band of Chumash 
Indians, Santa Ynez, California; the Honorable Marjie Mejia, 
Chairperson, Lytton Rancheria of California, Santa Rosa, 
California; the Honorable Mike Healy, Councilmember, City of 
Petaluma, Petaluma, California; Mr. William ``Bill'' Krauch, 
Chair, Santa Ynez Valley Coalition, Los Olivos, California.
    I want to remind the witnesses that your full written 
testimony will be made a part of the official hearing record. 
Please keep your statements to five minutes so we have time for 
questions. With that, we will begin with Mr. LaCounte.

          STATEMENT OF DARRYL LACOUNTE, ACTING DEPUTY 
  BUREAU DIRECTOR, OFFICE OF TRUST SERVICES, BUREAU OF INDIAN 
            AFFAIRS, U.S. DEPARTMENT OF THE INTERIOR

    Mr. LaCounte. Good afternoon, Chairman Hoeven and Vice 
Chairman Udall.
    My name is Darryl LaCounte. I am the Acting Deputy Bureau 
Director for Trust Services for the Bureau of Indian Affairs in 
the Department of Interior. I am happy to present the 
department's views on H.R. 597, the Lytton Rancheria Homelands 
Act of 2017, and H.R. 1491, the Santa Ynez Band of Chumash 
Indians Land Affirmation Act of 2017.
    Let me begin with this. The department supports tribal 
self-determination, which at times include tribes electing to 
voluntarily proscribe activities that may legally be conducted 
on their lands. Therefore, the department supports the 
congressional efforts being made in H.R. 597, the Lytton 
Rancheria Homelands Act.
    The bill will assure a homeland for the Lytton Rancheria of 
California where tribal housing as well as governmental 
community facilities are needed and can be constructed. In 
addition, the lands will also provide economic opportunities, 
including the continued use of a portion of the lands for 
viniculture.
    The Lytton Rancheria Homelands Act of 2017 addresses the 
long history of Federal Indian relations in California and 
provides for a viable homeland for members of the tribe. The 
tribe's original homeland was purchased in 1926, pursuant to 
Congressional authority.
    On August 1, 1961, the tribe was terminated in accordance 
with the Rancheria Act of 1958. As a result of termination, the 
tribe lost their original homelands that were purchased in 
1926. In 1987, the tribe joined other tribes in a lawsuit 
against the United States, challenging their termination. Based 
on an agreement between parties, in the case of Scotts Valley 
Band of Pomo Indians of the Sugar Bowl Rancheria v. United 
States, the tribe was restored to federally-recognized status.
    The lands identified in H.R. 597 will ensure that the 
Lytton Rancheria has permanent protected homeland as it enjoyed 
prior to termination. The ability for tribes to acquire land in 
trust and the certainty that such lands remain in trust is an 
essential tool for fostering tribal self-determination. 
Administering trust lands is an important responsibility that 
the United States undertakes on behalf of Indian tribes. The 
Congress, through its plenary authority over Indian affairs, 
can direct the department to acquire and administer trust lands 
as it does in H.R. 597.
    Also, we understand the Department of Justice may have 
technical comments on H.R. 597. Therefore, we support the 
Congressional goals embodied in H.R. 597, the Lytton Rancheria 
Homelands Act.
    And now for H.R. 1491, the Santa Ynez Band of Chumash 
Indians Land Affirmation Act of 2017. This legislation would 
reaffirm the action of the Secretary of the Interior to take 
land into trust for the benefit of the Santa Ynez Band of 
Chumash Mission Indians. The department supports the tribe's 
efforts to voluntarily proscribe the activities that may 
legally be conducted on its lands through H.R. 1491.
    H.R. 1491 would reaffirm the decision dated January 19, 
2017, that the Principal Deputy Assistant Secretary of Indian 
Affairs Lawrence S. Roberts take approximately 1,427 acres of 
land in Santa Barbara County, California, into trust for the 
benefit of the tribe. On January 20th, 2017, the Pacific Area 
Regional Director accepted the land into trust. Since that 
time, the tribe has worked with Santa Barbara County on a 
memorandum of agreement between the two parties regarding lands 
into trust.
    On October 31, 2017, the Board of Supervisors for the 
county approved the MOA and the department approved the MOA 
pursuant to Section 2103 of the revised statute, 25 U.S.C. 
Section 81. The tribe has further agreed that gaming will not 
be conducted on the identified lands taken into trust for the 
tribe. When a trust acquisition is finalized and the title 
transferred in the name of the United States, tribes in the 
United States should be able to depend on the status of the 
land and the scope of the authority over such lands taken into 
trust. H.R. 1491, with amendments, would provide such certainty 
regarding the ownership status of this land.
    In conclusion, administering trust lands is an important 
responsibility the United States undertakes on behalf of Indian 
tribes and the Secretary's authority to acquire lands in trust 
for the tribes and a certainty concerning the status of and 
jurisdiction over Indian lands after such acquisitions, are at 
the core of the Federal trust responsibility.
    This concludes my statement on both H.R. 597 and H.R. 1491. 
I would be happy to answer questions the Committee may have.
    [The prepared statement of Mr. LaCounte follows:]

 Prepared Statement of Darryl LaCounte, Acting Deputy Bureau Director, 
Office of Trust Services, Bureau of Indian Affairs, U.S. Department of 
                              the Interior
                                H.R. 597
    Chairman Hoeven, Vice Chairman Udall, and members of the Committee, 
my name is Darryl LaCounte and I am the Acting Deputy Bureau Director-
Trust Services at the Department of the Interior. Thank you for the 
opportunity to present the Department's views on H.R. 597, the Lytton 
Rancheria Homelands Act of 2017.
    The Departments supports tribal self-determination, which at times 
includes tribes electing to voluntarily proscribe activities that may 
legally be conducted on their lands. Therefore, the Department supports 
the congressional efforts being made in H.R. 597. The bill will assure 
a homeland for the Lytton Rancheria of Califorina (Tribe) where tribal 
housing, as well as governmental and community facilities, is needed 
and can be constructed. In addition, the lands will also provide 
economic opportunities, including the continued use of a portion of the 
lands for viniculture.
Background
    The Lytton Rancheria Homelands Act of 2017 addresses the long 
history of Federal-Indian relations in California and provides for a 
viable homeland for the members of the Tribe. The Tribe's original 
homeland was purchased in 1926 pursuant to congressional authority 
designed to remedy tragedy that befell the Indians of California. On 
August 1, 1961, the Tribe was terminated in accordance with the 
Rancheria Act of 1958. As a result of termination the Tribe lost their 
original homelands that were purchased in 1926.
    In 1987, the Tribe joined other tribes in a lawsuit against the 
United States challenging their termination. Based on an agreement 
between the parties, in the case of Scotts Valley Band of Pomo Indians 
of the Sugar Bowl Rancheria v. United States, the Tribe was restored to 
federally recognized status. The Stipulated Judgment, however, contains 
provisions that prohibit the Tribe from exercising its federal rights 
on its original homelands. Through agreements in the Stipulated 
Judgment, the Tribe must depend on lands outside of their original 
homelands to support their government. The lands identified in H.R. 597 
will ensure that the Lytton Rancheria has a permanent protected 
homeland as it enjoyed prior to termination. The ability for Tribes to 
acquire land in trust and the certainty that such lands remain in trust 
is an essential tool for fostering tribal self-determination.
H.R. 597
    H.R. 597 will place approximately 511 acres of land into trust for 
the Tribe. Section 4 of H.R. 597 references a map titled ``Lytton Fee 
Owned Property to be Taken into Trust'' dated May 1, 2015, that 
identifies lands to be placed into trust for the Tribe pursuant to the 
bill. Under H.R. 597, once the land is in trust for the Tribe, valid 
existing rights, contracts, and management agreements related to 
easements and rights-of-way will remain. H.R. 597 also includes a 
restriction that the Tribe may not conduct any gaming activities on any 
land placed into trust pursuant to this Act and places a time 
prohibition on gaming on any future lands placed in trust in Sonoma 
County for the Tribe until March 15, 2037, an approximately 19-year 
prohibition.
    H.R. 597 also references a Memorandum of Agreement between Sonoma 
County and the Tribe. The MOA affects not only the trust acquisition 
covered in the legislation but also future acquisitions and subjects 
the Tribe to the land use/zoning authority of the County for most of 
the property identified in the legislation for the term of the MOA, 22 
years, and imposes negotiated restrictions on the Tribe's residential 
development. H.R. 597 also includes a permanent gaming prohibition on 
those lands located north of California State Highway Route 12 as it 
crosses through Sonoma County at Highway 101, and extending to the 
furthest extent of Sonoma County.
    Administering trust lands is an important responsibility that the 
United States undertakes on behalf of Indian tribes. The Congress, 
through its plenary authority over Indian Affairs, can direct the 
Department to acquire and administer trust lands as it does in H.R. 
597. The Department is also supportive of counties and tribes 
negotiating agreements to resolve their differences.
    We understand that the Department of Justice may have technical 
comments on the bill.
Conclusion
    In conclusion, The Departments supports tribal self-determination, 
which at times includes tribes electing to voluntarily proscribe 
activities that may legally be conducted on their lands. Therefore, we 
support the congressional goals embodied in H.R. 597, the Lytton 
Rancheria Homelands Act. I would be glad to answer any questions the 
Committee may have.
                               H.R. 1491
    Chairman Hoeven, Vice Chairman Udall, and Members of the Committee, 
my name is Darryl LaCounte and I am the Acting Deputy Bureau Director-
Trust Services at the Department of the Interior (Department). Thank 
you for the opportunity to present testimony on H.R. 1491, the Santa 
Ynez Band of Chumash Indians Land Affirmation Act of 2017. This bill 
would reaffirm the action of the Secretary of the Interior to take land 
into trust for the benefit of the Santa Ynez Band of Chumash Mission 
Indians (Tribe). The Department supports the Tribe's efforts to 
voluntarily proscribe the activities that may legally be conducted on 
its lands through H.R. 1491.
Background
    By decision dated January 19, 2017, the Principal Deputy Assistant 
Secretary--Indian Affairs, Lawrence S. Roberts affirmed the December 
24, 2014, decision of the Bureau of Indian Affairs (BIA) Pacific 
Regional Director to take approximately 1,427 acres of land in Santa 
Barbara County, California, into trust for the benefit of the Tribe. On 
January 20, 2017, the Regional Director accepted the land into trust.
    Since that time the Santa Ynez Band of Chumash has worked with 
Santa Barbara County on a Memorandum of Agreement between the two 
parties regarding the lands taken into trust. On October 31, 2017, the 
Board of Supervisors for the County approved the MOA and the Department 
approved the MOA pursuant to section 2103 of the Revised Statutes (25 
U.S.C. 81). The Tribe has further agreed that gaming will not be 
conducted on the identified lands taken into trust for the Tribe.
    The Department agrees that certainty of title is important, as it 
provides tribes, the United States, and state and local governments 
with the clarity needed to carry out each sovereign's respective 
obligations. Such certainty is pivotal to the tribe's ability to 
provide essential government services to its citizens, such as housing, 
education, health care, and promote tribal economies.
    Once the trust acquisition is finalized and title transferred in 
the name of the United States, tribes and the United States should be 
able to depend on the status of the land and the scope of the authority 
over the land. H.R. 1491, with amendments, would provide such certainty 
regarding the ownership status of this land.
H.R. 1491
    Section 3 of H.R. 1491 provides that the action taken by the 
Department on January 20, 2017, to place approximately 1,427 acres of 
land located in Santa Barbara County, California, into trust for the 
benefit of the Santa Ynez Band of Chumash Indians, is hereby ratified 
and confirmed as if that action had been taken under a Federal law 
specifically authorizing or directing that action.
    H.R. 1491 also provides that nothing in the legislation shall 
enlarge, impair, or otherwise affect any right or claim of the Tribe to 
any land or interest in land in existence before the date of the 
enactment of H.R. 1491; affect any water right of the Tribe in 
existence before the date of the enactment; or terminate or limit any 
access in any way to any right-of-way or right-of-use issued, granted, 
or permitted before the date of the enactment of H.R. 1491. The 
legislation would also restrict lands already taken into trust to 
preclude the Tribe from conducting gaming activities on the land, as a 
matter of claimed inherent authority or under any Federal law, 
including the Indian Gaming Regulatory Act (25 U.S.C. 2701 et seq) and 
regulations promulgated by the Secretary or the National Indian Gaming 
Commission under that Act.
Conclusion
    Administering trust lands is an important responsibility that the 
United States undertakes on behalf of Indian tribes. The Secretary's 
authority to acquire lands in trust for tribes and the certainty 
concerning the status of and jurisdiction over Indian lands after such 
acquisitions are at the core of federal trust responsibility. This 
concludes my statement and I would be happy to answer questions.

    The Chairman. Thank you. Mr. Kahn?

 STATEMENT OF HON. KENNETH KAHN, CHAIRMAN, SANTA YNEZ BAND OF 
                        CHUMASH INDIANS

    Mr. Kahn. Mr. Chairman, Mr. Vice Chairman, thank you for 
the opportunity to appear before you today. I am proud to be 
here representing the members of the Santa Ynez Band of Chumash 
Indians in support of H.R. 1491, the Santa Ynez Band of Chumash 
Mission Indians Land Affirmation Act of 2017.
    This legislation ratifies the actions taken by the 
Department of the Interior to place the land in trust for our 
tribe. If enacted, it will allow us to expedite the 
construction of 143 homes for tribal members and descendants, 
and will provide us with much-needed land to protect and grow 
our cultural heritage.
    The Santa Ynez Band of Chumash Indians is the only 
federally-recognized tribe of Chumash heritage. Our Chumash 
people inhabited the California coast from Monterrey to the 
north to Malibu in the south. The Chumash were the first 
California Indians encountered by the Spanish explorer Juan 
Cabrillo when he landed in what is now known as the city of 
Ventura, California, in 1542.
    Like many California Indians, we were forced into Spanish 
missions for generations, destroying much of our culture, 
confiscating our lands and decimating our populations. 
Following the mission era in 1906, the United States granted 
our tribe 99 acres in Santa Ynez, California. We subsequently 
voted to organize under the Indian Reorganization Act in 1934.
    While most of the reservation lacked running water and 
electricity, the tribe secured several HUD grants in the 1960s 
and 1970s to build housing for our members. Today, those 
renovated 50-year-old HUD houses remain the primary housing on 
our reservation. As a result, only 17 percent of our tribal 
members and descendants live on tribal land.
    After Congress passed the Indian Gaming Regulatory Act, our 
tribe elected to take advantage of the opportunity. We entered 
into a compact with the State of California and have run a 
successful gaming operation for almost 20 years. Like many 
tribes, gaming was a catalyst. It provided us the resources to 
rebuild our government and rebuild our culture. Like any 
government, one of our greatest needs is housing. As I 
mentioned, only a fraction of our tribal members and 
descendants live on tribal land. And with no space left to 
construct new houses, we knew that we needed to acquire more 
land.
    We purchased roughly 1,400 acres known as Camp 4, just over 
a mile from our existing reservation that was part of our 
aboriginal territory. With this purchase, we committed to our 
members that we would ensure each tribal family have a tribal 
land assignment to build a home on this new tribal land, once 
Camp 4 was taken into Federal trust. Before even attempting to 
place the land into trust, we approached our community. We know 
there are often misunderstandings about tribal lands, and we 
wanted to put our plans out in the open. We even went so far as 
to propose a cooperative mitigation agreement with the county 
before we attempted to pursue the legislative or administrative 
avenues for placing the land in trust.
    Sadly, we were met with resistance. Some in the community 
questioned our motives and made false accusations about our 
plans for the land. To be clear, we do not want to build a 
casino on the land and we do not want to export the water.
    After years of sharp criticism, it was clear our word was 
not enough. So we redoubled our efforts to reach an agreement 
with those who would work with us. It took seven years, but I 
am proud to say that we got there.
    On October 31, 2017, after 22 public hearings and hundreds, 
if not thousands, of public comments, the tribe and the county 
entered into a binding mitigation agreement for development on 
Camp 4 lands. The tribe agreed to build 143 housing units, a 
small tribal meeting hall, and an administrative building, and 
protecting the vast majority of the property as agricultural 
land or environmental open space. We agreed to fairly 
compensate the county for services it provided in the area.
    I want to be clear: we entered into this agreement because 
it was the right thing to do, not because we were forced to do 
so.
    In the midst of our negotiation with Santa Barbara County, 
the Department of the Interior placed our lands in trust. Some 
believed that there was no need for an agreement. The tribal 
leadership was committed. We wanted to proceed, hoping we could 
improve relations in the valley and establish a precedent for 
future collaboration with the county. Our decision to continue 
working with the county, even after our land was placed in 
trust, is a big reason why we have such strong community 
support for the bill.
    On that note, Mr. Chairman, I would ask that the statements 
from Santa Barbara County, our local Congressman, Salud 
Carbajal, and the bill's sponsor, Congressman Doug Lamalfa, be 
added to the hearing record.
    The Chairman. Without objection.
    Mr. Kahn. I would also request that the Committee accept 
the statements of 37 individuals who spoke in support of the 
tribe and its agreement with the county at a public hearing on 
October 31, 2017. These statements include those of former 
Congressman Lois Capps and former county supervisors where the 
tribe is located, Dorene Farr, and Gail Marshall.
    In conclusion, I want to thank the Committee once again for 
the opportunity to be here today. The bill will expedite much-
needed housing for tribal members and will set a precedent that 
good faith negotiations between tribes and local governments 
will be rewarded.
    Thank you, Mr. Chairman, thank you, Mr. Vice Chairman. I 
look forward to answering any questions you may have.
    [The prepared staetmetn of Mr. Kahn follows:]

 Prepared Statement of Hon. Kenneth Kahn, Chairman, Santa Ynez Band of 
                            Chumash Indians
    Mr. Chairman, Mr. Vice Chairman, Members of the Committee, thank 
you for the opportunity to appear before you today. I am proud to be 
here representing the Members of the Santa Ynez Band of Chumash Indians 
in support of H.R. 1491, the Santa Ynez Band of Chumash Indians Land 
Affirmation Act of 2017.
    This legislation ratifies the actions taken by the Department of 
the Interior to place land in trust for our Tribe. If enacted, it will 
allow us to expedite the construction of 143 homes for tribal members 
and descendants, and will provide us with a much needed land base to 
protect and grow our cultural heritage.
    I want to begin by providing a brief history of how we got here. 
The context is important, and should give you a good lens with which to 
view this legislation.
    The Santa Ynez Band of Chumash Indians is the only federally 
recognized tribe of Chumash heritage. Our Chumash people historically 
inhabited the California coast from Paso Robles in the North, to Malibu 
in the South. The Chumash were the first California Indians encountered 
by the Spanish explorer Juan Cabrillo when he landed in what is now the 
City of Ventura, California in 1542.
    Like many California Indians, we were forced into Spanish missions 
for generations, destroying much of our culture, confiscating our 
lands, and decimating our population.
    Following the Mission era, in 1906, the United States provided our 
tribe 99 acres in a swampy riverbed in Santa Ynez, California. We 
subsequently voted to organize under the Indian Reorganization Act in 
1934.
    Even while most of the reservation lacked running water and 
electricity, the Tribe secured several HUD grants in the 1960s and 
1970s to build housing for our members. Today, those renovated 50-year-
old HUD houses remain the only housing on our reservation. As a result, 
only 17 percent of our tribal members and descendants live on tribal 
land.
    After Congress passed the Indian Gaming Regulatory Act, our Tribe 
elected to take advantage of the opportunity. We entered into a compact 
with the State of California, and have run a successful gaming 
operation for almost 20 years.
    Like many tribes, gaming was a catalyst. It provided us the 
resources to rebuild our government and our culture.
    By 2010, the greatest need in our community was tribal housing. As 
I mentioned, only a fraction of tribal members and descendants live on 
tribal land, and with no space left to construct new houses, we knew 
that we needed to acquire more land.
    We were fortunate to find a landowner just down the road from our 
existing reservation that was willing to sell us land that was a part 
of our original land grant from the Catholic Church, clearly within our 
aboriginal territory. When we purchased the roughly 1,400 acres known 
as Camp 4, we committed to our members that each family would have a 
land assignment on tribal land once Camp 4 was taken into trust.
    Before even attempting to place the land in trust, we approached 
our community. We know there are often misunderstandings about tribal 
lands, and we wanted to put our plans out in the open. We even went so 
far as to propose a cooperative mitigation agreement with the County 
before beginning the legislative or administrative avenues for placing 
the land in trust.
    Sadly we were met with resistance. Some in the community questioned 
our motives and made false accusations about our plans for the land. It 
was frustrating. No, we don't want to build a new casino just a mile 
away from our existing casino. No, we didn't want the land in trust so 
we could export the water.
    To be candid, some of what was said was extremely disappointing.
    We heard wild, baseless allegations such as the Tribe was not a 
political jurisdiction eligible for government-to-government 
negotiations. We were told that it is inadvisable for sovereign tribal 
trust lands to exist in America. Some even asserted that our Chairman 
was a Mexican, not a Native American.
    After more than a year of sharp, baseless criticisms, it was clear 
that our good faith effort to resolve local issues prior to beginning 
the Fee to Trust process had failed. So, in July 2013 we filed the 
Administrative fee-to-trust application for Camp 4.
    Not surprisingly, our opponents immediately filed suit opposing the 
action. Knowing this group would use the administrative and legal 
appeals process to delay our application for as long as possible, we 
also sought to place the land in trust via an act of Congress.
    Tribal leaders also redoubled our efforts to reach an agreement 
with those who would work with us, starting with the County Sheriff 
Department. The Tribe had developed a wonderful relationship with our 
Sheriff through years of joint programs and jurisdictional cooperation, 
and we believed we could negotiate with them in good faith.
    Our faith was well-placed. The Chumash Tribe and Sheriff Bill Brown 
entered into a new cooperative agreement that improved public safety in 
the region by having the Tribe provide funding for a new police cruiser 
and four deputies (that has now grown to six deputies) at a cost of 
more than $1 million each year. These deputies didn't just serve the 
Reservation, they responded to emergencies all across Santa Barbara 
County. Next, we moved on to the Fire Department, and secured an 
agreement in which the Tribe contributes more than $1 million each year 
to improve County-wide emergency services for our community.
    Those two agreements came as we began to see movement on both the 
administrative and legislative fee-to-trust routes.
    In late 2014, the Bureau of Indian Affairs Sacramento Regional 
Office issued a Notice of Decision regarding the Department's intent to 
accept the Camp 4 land in trust. The Department had determined that the 
tribe's application met the criteria for federal acquisition, and in 
accordance with federal regulations, proposed accepting the land for 
the benefit of the Tribe.
    However, once again, our neighbors chose litigation over 
cooperation. The Department of the Interior was sued more than half a 
dozen times over their decision, including by the County of Santa 
Barbara.
    Fortunately, in early June 2015 the House Resources Committee's 
Subcommittee on Indian Affairs held a hearing on an earlier version of 
this legislation. This marked a turning point.
    Upon Congressional examination, the weakness of the opposition's 
position came to light. For House Resources Committee Members, who 
routinely deal with issues dealing with Native American Tribes, the 
issue was black and white. The Tribe proposed taking land in trust, 
proposed development that was consistent with the surrounding 
community, and attempted to mitigate impacts even though that step was 
not required by federal law. This should have been an open-and-shut 
case--and Committee Members said so in no uncertain terms.
    That hearing was a real wake up call for the County of Santa 
Barbara. For too long, the County had allowed a vocal minority within 
the community to steer the official County position. When the details 
were examined by a neutral third party, the error in their ways became 
clear.
    And to the County's credit, they responded positively. Promptly 
after we returned from the hearing in Washington, the County reached 
out and expressed an interest in re-examining their position. We 
happily agreed to come back to the negotiating table. Our leadership 
knew that neither the Tribe nor the county were going anywhere, so it 
was in both of our best interests to find ways to get along.
    After some discussion, the County and Tribe initiated the Ad Hoc 
Subcommittee Regarding Santa Ynez Valley Band of Chumash Indians 
Matters on August 15, 2015. The group was made up of two Members of the 
Board of Supervisors and two members of the Chumash Business Committee. 
I have served on this committee since its inception, first in my 
capacity as Vice Chairman, and since April 2016, as Chairman of the 
Tribe.
    Like any negotiation, there were fits and starts. Sometimes we hit 
fundamental disagreements, and talks slowed to a trickle. Sometimes 
there were bursts of progress when we made a breakthrough. Many were 
skeptical, but I am proud to say we got there. On October 31, 2017, 
after 22 public meetings and hundreds, if not thousands, of public 
comments, the Tribe and the County entered into a binding mitigation 
agreement for development on our Camp Four lands.
    The agreement stipulates that the Tribe will build 143 housing 
units, and a small Tribal Meeting Hall/administrative building. Under 
the agreement the vast majority of the property will be protected as 
agricultural land or environmental open space. And we agreed to fairly 
compensate the County for the services it provides in the area.
    Under the terms of the agreement, the County dismissed its lawsuit 
against the Department of the Interior. The County also agreed to 
support the Legislation being considered here today.
    I would like to take a moment to recognize the County's 
representatives who are in the audience today--since we turned the 
corner, they have really been wonderful partners. In particular, I want 
to recognize the singular leadership of Supervisor Joan Hartmann, who 
represents our Supervisorial District, Chaired the Ad Hoc Subcommittee, 
and served as Chairwoman of the Board of Supervisors until this year. 
Supervisor Hartmann was a force to be reckoned with, and I want to 
thank her for her personal efforts and commitment to getting us to 
where we are today.
    I will return to some of the specifics of our agreement in a 
moment, but I want to briefly underscore an important point: we entered 
into this agreement because it was the right thing to do--not because 
we were forced to do so.
    In the midst of our negotiations with Santa Barbara County, the 
Department of the Interior placed our lands in trust. On January 19, 
2018, Acting Assistant Secretary-Indian Affairs Larry Roberts completed 
our Fee-to-Trust process and dismissed the pending challenges against 
the action. Secretary Zinke subsequently upheld this action in the new 
Administration.
    We had already won; there was no need for the agreement, according 
to many of my members.
    But tribal leadership was committed. We hoped that by going through 
with negotiations, we could improve relations in the valley and set a 
road map for how we work with the County on future projects.
    Looking back now, I believe that was the right decision. Our 
agreement demonstrated to many in the Community that good faith 
negotiations between the County and the Tribe are possible, and that 
they can be fruitful. I also believe that our decision to work with the 
County even after our land was placed in trust is a big reason why we 
have such strong support for the bill.
    On that note, Mr. Chairman, I would ask that following the 
conclusion of my remarks, the Committee accept several key statements 
of support from Santa Barbara County, our local Congressman, Salud 
Carbajal, and the bill's sponsor, Representative Doug LaMalfa. I would 
also ask that the committee include comments in support of the 
agreement from Former Congresswoman Lois Capps, Former Supervisor 
Doreen Farr, and more than two dozen other local leaders, chambers of 
commerce, labor groups, environmental organizations, and other 
community members.
    I will be the first to acknowledge that not everyone is happy with 
this agreement. As you will hear from Mr. Krauch, some of our neighbors 
are still unhappy, even after all of the concessions we made willingly.
    They have every right to raise concerns, and I am glad that they 
did. Mr. Krauch and others brought up a number of tough issues, and 
because of the open, transparent public hearing process, we were forced 
to respond to their comments. More importantly, we made changes to the 
agreement based on their concerns. Don't take my word for it. Look back 
to our initial offer to the County nearly ten years ago; I think it is 
clear as day that we made substantial concessions to the community.
    It is worth mentioning a few of the more substantive concerns that 
were raised, and how we addressed them in the agreement referred to in 
Section 2 of the legislation.
    Gaming is often cited as a major concern with fee-to-trust 
applications across the country. Our application was not, is not, and 
will never be for gaming. It is about housing. That is why the only 
component of the agreement that lasts in perpetuity is the prohibition 
on gaming. The tribe does not feel that this was a major concession--
our existing gaming facility is less than two miles down the road. It 
would make no sense to build a new casino on this land, so we were 
happy to take that off the table. As you will notice, this was done in 
Section 3(g) of the bill.
    Concerns about land use were, without question, the most common 
issue raised prior to the formal negotiations with the County and 
throughout the public process. Sovereign tribal land is not subject to 
county zoning ordinances, and this really got under the skin of some of 
the no-growth community members. But as members of the Santa Ynez 
Valley community, we share many of the goals of our neighbors. We don't 
want high density multi-family urban-style development. And we 
certainly don't want to spoil the bucolic scenery of the valley.
    That's why the agreement with the County puts reasonable 
restrictions on what and where the Tribe can build. We voluntarily 
limit our construction projects to 143 homes, and a tribal hall/
administrative building. The rest of the land will be open space, 
remain in agricultural production, or be actively managed to maximize 
environmental benefit for the region.
    The size of the buildings we construct will be limited, as set 
forth in the Environmental Assessment that we submitted to the 
Department of the Interior. The agreement simply requires us to follow 
our original plans.
    Moreover, in an effort to address concerns about preserving the 
rural character of the Valley, the Tribe agreed to develop the Camp 4 
property in a manner that was less dense than the neighboring housing 
development. We propose 143 homes on our 1,427-acre property, while our 
neighbors in the Rancho Santa Ines Estates development have 137 homes 
across 1,058 acres.
    A few of our more creative opponents have raised the concern that 
the Tribal Hall and Administrative building will be used to throw large 
parties. Nothing could be further from the truth. Events are limited, 
per the enforceable environmental assessment document. And, as with all 
tribal government facilities on our reservation, tribal law prohibits 
the consumption of alcohol. In reality, the 12,000 square foot space--
which are coincidentally about the size of some of our neighbors' 
homes--will be used for offices, and to hold tribal council meetings, 
youth education events, and traditional/cultural events.
    Another common concern we heard was that by placing the land in 
trust, the County loses out on tax revenue. This is true, and we set 
out to make it right.
    We asked the County to quantify the cost of services provided; 
after a thorough review, they requested $178,500 annually for the life 
of the agreement (until 2040). We felt this was fair, and happily 
agreed to the request. As such, in Section III, 9(d), on page six of 
our agreement, the Tribe agrees to provide the County with these 
payments.
    Water was another important concern we heard. Some accused us of 
just wanting the land to sell the water during the drought. This was 
absurd, of course, because we need to use the water for housing. But we 
addressed the concerns none the less. Under the terms of the agreement, 
the new development will be water neutral during drought years. We will 
accomplish this by removing up to 50 acres of the existing agriculture 
on the property and by recycling all wastewater. It is also worth 
noting that the Indian Non-Intercourse Act prohibits the removal of 
water from tribal trust lands without express statutory authorization. 
So, to export water off the reservation we would require subsequent 
legislation from Congress.
    The last concern was also among the most frustrating. Many that 
opposed the agreement claim that it is not enforceable in a court of 
law. While the Santa Ynez Band of Chumash Indians is a federally 
recognized Indian Tribe that has sovereign immunity, Section V of the 
agreement includes a limited waiver of that immunity based on our 
enforceable gaming compact with the State of California. Put simply, if 
the Tribe fails to up hold its end of the deal, the County has legal 
remedies to address our failure.
    I have just run through a sampling of the issues that came up 
during the many months of public hearings, open dialogues, and 
Congressional consideration of this bill. There are many more issues 
that were raised, and each one received a written answer that is posted 
on the Santa Barbara County Board of Supervisors webpage (https://
www.countyofsb.org/tribal-matters.sbc).
    In conclusion, I want to thank the Committee once again for the 
opportunity to be here today. The bill will expedite much needed 
housing for our tribal members and will set a precedent that good faith 
negotiations between tribes and local governments will be rewarded.
    Thank you Mr. Chairman, and I look forward to answering any 
questions you may have.

    The Chairman. Thank you, Chairman Kahn. Chair Mejia?

STATEMENT OF HON. MARJORIE MEJIA, CHAIRPERSON, LYTTON RANCHERIA 
                         OF CALIFORNIA

    Ms. Mejia. Good afternoon, Chairman Hoeven, Vice Chairman 
Udall and members of the Committee on Indian Affairs. My name 
is Margie Mejia, and I am the Chairperson for Lytton Rancheria, 
located near Santa Rosa, California. Thank you for inviting me 
here today to speak in strong support of H.R. 597, the Lytton 
Rancheria Homelands Act of 2017.
    I would like to take this opportunity to recognize Sonoma 
County Supervisor David Rabbitt, who is sitting behind me 
today, and thank him and the entire board for their steadfast 
support of H.R. 597. I would also like to thank the chairperson 
of the county board of supervisors, James Gore, for his written 
testimony in support of this vital legislation.
    This bill would place land currently owned by the tribe in 
Federal trust status, creating a tribal homeland for members of 
the tribe. The creation of this homeland would fulfill a 
promise made by the Federal Government in a 1991 Federal court 
stipulation that restored the tribe's status as a federally-
recognized tribe.
    We have worked hard to develop agreements and 
understandings with local non-Indian communities. Agreements 
with Sonoma County, the Windsor Fire Protection District and 
the Windsor Unified School District reflect our commitment to 
work with local governments in a mutually respectful manner. We 
appreciate the support of these governmental entities as well 
as the State of California for this bill restoring us to a 
homeland.
    I want to also confirm that we have agreed not to conduct 
gaming on the lands that will be taken into trust for the 
homeland in this bill. We have also agreed not to conduct 
gaming within the county of Sonoma, pursuant to the terms 
contained in our MOA with the county.
    I would like to announce today that at the request of 
Senator Feinstein and the county of Sonoma, the tribe has 
agreed to further amend the MOA with Sonoma County to prohibit 
gaming by the tribe in perpetuity in the county, as long as the 
tribe is not involuntarily prohibited by governmental decision 
or action from operating its casino in San Pablo, California, 
pursuant to IGRA. The Lytton Tribe has endured many hardships 
and has experienced a number of delays and broken promises in 
its attempt to establish a homeland for its members. No matter 
how difficult the situation, we may have become discouraged, 
but we have never given up.
    As you know, all tribes, all Native American tribes in all 
circumstances need a tribal homeland that is adequate to 
support economic activity and self-determination. We want and 
need to live in a community where we can thrive and prosper. 
Please give us that opportunity by passing our homeland bill.
    Thank you for your time, and I would be happy to answer any 
questions.
    [The prepared statement of Ms. Mejia follows:]

    Prepared Statement of Hon. Marjorie Mejia, Chairperson, Lytton 
                        Rancheria of California
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    The Chairman. Thank you, Chair Mejia. Mr. Healy?

STATEMENT OF HON. MIKE HEALY, COUNCILMEMBER, CITY OF PETALUMA, 
                           CALIFORNIA

    Mr. Healy. Thank you, Mr. Chair and honorable members of 
the Committee. I am here today in two different roles. First, 
as an elected member of the Petaluma City Council, and 
currently our city's vice mayor. My colleagues and I have 
submitted two letters opposing H.R. 597 which I will briefly 
summarize and are included in my full testimony. Secondly, 
because the opponents of the bill have been allocated only one 
witness, I will speak on behalf of the grassroots group, 
Citizens for Windsor.
    Petaluma has a population of 61,000 and is located on 
Highway 101 in southern Sonoma County. We are 25 miles south of 
the town of Windsor, which has a population of 27,000 and is 
located in central Sonoma County. The lands that are the 
subject of H.R. 597 are adjacent to Windsor.
    My colleagues' and my concerns with H.R. 597 are two-fold. 
First, the more narrowly--I am going to skip this part of it, 
because I believe the Chair has actually responded to this 
question. Thank you for that.
    Second, and more broadly, we are very concerned that H.R. 
597 represents another unsavory step in the reservation-
shopping saga in the north bay, both by newly-recognized and 
long-established tribes. All nine cities in Sonoma County are 
surrounded by voter-approved urban growth boundaries to prevent 
sprawl-type development. Layered over that are voter-approved 
urban separators and county zoning that support the same policy 
goals.
    Cities in our region are surrounded by privately-owned 
ranches and farms outside urban growth boundaries in areas 
zoned for agriculture. These lands are off-limits to intense 
development. There are enormous financial incentives to find 
ways to develop such lands, especially in the Bay area. And 
that financial pressure will only intensify in the future.
    The Lytton proposal on H.R. 597 provided a blueprint for 
frustrated landowners and anti-zoning developers to partner 
with the tribe and override carefully designed regulations 
limiting sprawl development on lands adjoining cities 
throughout the region. And for those reasons, even with the 
amendments that we have requested, my city council urges a 
``no'' vote on H.R. 597.
    There are other significant concerns. This land has not 
gone through the BIA's normal fee-to-trust review process and 
would not qualify for trust status. The BIA has never approved 
fee-to-trust applications for the Lytton Rancheria. The tribe 
was recognized in 1991 and the Carcieri decision holds the 
Federal Government cannot take land into trust for lands that 
were not recognized after 1934.
    H.R. 597 is in effect a Carcieri fix and would benefit only 
one tribe. This evasion of the BIA fee-to-trust application 
process will set a bad precedent for new Indian policy in 
Sonoma County, California and the entire United States.
    In 2000, Representative Miller added a paragraph to the 
Indian Omnibus Bill to take nearly 10 acres of land into trust 
as a homeland for the Lytton so that they could operate a 
casino on it. That land is located in San Pablo in Contra Costa 
County. This was one of the few reasons that California then-
Attorney General Kamala Harris' office opposed land into trust 
in Windsor and in a 2011 letter to the BIA said, ``To the 
extent that the Act describes those 10 acres of land as 
Lytton's reservation, this provision makes clear that the 
Lytton's tribal location should be considered to be Contra 
Costa County, rather than Sonoma County.''
    In that letter, then-Attorney General Harris' office 
further argues that the land under consideration never received 
a complete environmental review and should not be considered 
until this is done. The EA for the proposed housing in Windsor 
is almost 10 years out of date and covers just 124 acres. There 
has been no environmental review for the entire 500 acres H.R. 
597 takes to put into trust adjacent to Windsor.
    This homeland bill purports to be about housing, but the 
Lytton have plans for a large commercial project, a 200-room 
hotel, restaurants, shops, event center, a 200,000 case per 
year winery on land that is currently zoned agricultural. This 
commercial development is outlined in the 2015 memorandum of 
agreement that the Lyttons signed with the County of Sonoma, 
but it is not mentioned anywhere in the bill. The County 
negotiated the MOA, obligating it to support the Lyttons' fee-
to-trust efforts after the count mistakenly assumed that the 
land might be taken into trust by the BIA.
    Because this land is outside of Windsor's open growth 
boundary, where a vote of Windsor residents is legally required 
to extend utilities, there are no assurances of the use of 
municipal water or sewer. There are many other irreparable 
environmental impacts, such as clear-cutting of growth of 1,500 
historic oak trees. In addition, the proposed development is on 
narrow country roads, inaccessible to Highway 1 in an 
emergency.
    In 2017, the Lytton purchased from Salvation Army 564 acres 
of contiguous land adjacent to their historic rancheria at 
Lytton Springs near Highway 101. If it is determined that it is 
appropriate to help the Lytton to have a homeland in both 
Contra Costa and Sonoma counties, then this is a site that is 
far more appropriate for the proposed Lytton development, given 
its proximity to Highway 101, its past uses for residential and 
commercial purposes. It should be given serious consideration 
before any action on H.R. 597.
    Finally, a compromise is certainly possible that would 
place a second Lytton reservation at an appropriate location. 
Thank you, Mr. Chair.
    [The prepared statement of Mr. Healy follows:]

Prepared Statement of Hon. Mike Healy, Councilmember, City of Petaluma, 
                               California
    Mr. Chairman and honorable members of the Committee. I am here 
today in two different roles. First, as an elected member of the 
Petaluma City Council and currently our city's vice-mayor. My 
colleagues and I have submitted two letters opposing H.R. 597, which I 
will briefly summarize.1A\1\<SUP>,</SUP> \2\ And secondly, because 
opponents of the bill have been allocated one witness, I also will 
speak on behalf of the grassroots group, Citizens for Windsor. Mr. 
Chairman,
    Petaluma has a population of 61,000 and is located on U.S. Highway 
101 in southern Sonoma County. Petaluma is 25 miles south of the Town 
of Windsor, which has a population of 27,000 and is located in central 
Sonoma County. The lands that are the subject of H.R. 597 are adjacent 
to Windsor.
    My colleagues' and my concerns with H.R. 597 are two-fold. First 
and more narrowly, Section 5 of H.R. 597 paints a bull's eye on my city 
by offering only a 20-year prohibition on gaming on additional lands 
taken into trust for the Lytton in southern Sonoma County. Petaluma is 
the most logical place for a new casino in Sonoma County. My colleagues 
and I have offered specific statutory language to fix this serious 
problem.
    Second and more importantly, we are very concerned that H.R. 597 
represents another unsavory step in the reservation-shopping saga in 
the North Bay, by both newly recognized and long-established tribes. 
All nine incorporated cities and towns in Sonoma County are surrounded 
by voter-approved Urban Growth Boundaries (UGB) to prevent sprawl-type 
development. Layered over that are voterapproved community separators 
and county zoning that support the same policy goals. Voters in each of 
Sonoma County's nine incorporated communities have approved UGBs, 
drawing distinct lines where communities can and cannot grow. For 
example, in November, 2017, Windsor voted to renew their UGB for 
another 25 years with over 70 percent approval.
    Cities in our region are surrounded by privately owned ranches and 
farms outside Urban Growth Boundaries in areas zoned for agriculture. 
These lands are off limits to intense development. There are enormous 
financial incentives to find ways to develop such lands, especially in 
the Bay Area, and that financial pressure will only intensify in the 
future. The Lytton proposal and H.R. 597 provide a blueprint for 
frustrated landowners and anti-zoning developers to partner with a 
tribe and override carefully designed regulations limiting sprawl 
development on lands adjoining cities throughout the region. Denise 
Athas, current Novato City Council member, also recognized this. \3\ 
For those reasons, even with amendment to Section 5, The City Council 
of Petaluma urges a ``no'' vote on H.R. 597.
    There are other significant concerns with H.R. 597. This land has 
not gone through the normal review process for fee-to-trust land with 
the Bureau of Indian Affairs, and does not qualify for trust 
status.\4\<SUP>,</SUP> \5\<SUP>,</SUP> \6\<SUP>,</SUP> \7\ The BIA has 
never approved any fee-to-trust application for Lytton Rancheria.
    In 1927 the U.S. Department of Interior Office of Indian Affairs 
purchased 50 acres at Lytton Springs, north of Healdsburg, in Sonoma 
County for ``homeless California Indians.'' In 1937, Bert Steele, a \1/
4\ blood Indian from Round Valley, with his wife Mary, a Sonoma County 
Pomo, and their children, requested permission to occupy a portion of 
the land. They were permitted to build a house there. In 1938, the 
brother of Mary Steele, John Myers and his wife Dolores, also requested 
permission to occupy a part of the Lytton parcel. They were permitted 
to build a house there.
    In the 1950s the family members petitioned their Congressman to 
receive titles to the parcels and supported the passage of a bill that 
would terminate the Rancheria and enable them to secure a deed to their 
property. Following the passage of the Rancheria Distribution Act in 
1958, the Rancheria was dissolved in 1961, and the property was divided 
into eight parcels, which were distributed to eight family members. 
Following this, all eight parcels were sold by the distributees to non-
Indians.
    In 1986, lawyers for the Scott's Valley Band of Pomo Indians of the 
Sugar Bowl Rancheria filed suit in federal district court saying 
termination of their rancheria in 1961 was illegal. In 1987, the 
``Lytton Indian Community'' joined the Sugar Bowl Rancheria lawsuit.
    In 1991, without a jury trial and negotiated in closed session, a 
consent agreement was reached between the plaintiffs, the U.S. 
Department of Justice and Sonoma County Counsel. The settlement 
stipulated that the Lytton Community would be listed as a tribe in the 
federal register. \8\
    The Supreme Court's decision in Carcieri v. Salazar holds that the 
federal government cannot take land into trust for tribes that were 
recognized after 1934, which includes the Lytton. H.R. 597 is in effect 
a ``Carcieri fix,'' which will benefit only one tribe. This evasion of 
the BIA fee-to-trust application process will set a bad precedent for 
new Indian policy in Sonoma County, California, and the entire United 
States.
    In 1998 a group of investors bought a former card room in San Pablo 
on nearly 10 acres for the Lytton. In 1999, the Lytton, backed by their 
investors, applied to have the 10 acres, in the heavily urbanized East 
Bay, put into trust for them. The BIA told them this land would not 
qualify for an exception to the rule that lands acquired after 1988 
cannot be used for gaming.
    In 2000, Congressman George Miller added a paragraph into the 
Indian Omnibus bill directing the Secretary of the Interior to take the 
land with the cardroom in San Pablo, Contra Costa County, into trust as 
a reservation for the Lytton, and to backdate the acquisition to 1988, 
so that they could operate a casino on it.
    Lytton investors, known as Sonoma Entertainment Partners LP, also 
purchased 50 acres of land west of Windsor in Sonoma County in 2002, 
which they promised to give the Lytton once the San Pablo site became a 
casino. \9\ In 2007 following the opening of the casino in San Pablo, 
they gave the tribe the 50 acres. Lytton Rancheria purchased additional 
land with funds from their San Pablo casino. In 2009, they submitted a 
fee-to-trust application to the Bureau of Indian Affairs to develop a 
housing project, which did not conform with local land use zoning. \10\ 
A draft environmental assessment on 92 acres was released in 2009 for 
public comments. \11\ After the public comment period, when an amended 
fee-to-trust application was submitted, an additional 32 acres was 
added in the final environmental assessment in 2011.\12\<SUP>,</SUP> 
\13\
    In response to the Environmental Assessment of Lytton Rancheria's 
newly acquired Windsor lands, Attorney General Kamala Harris' office 
had considerable concerns.\14\ Her office stated in a letter to the 
Bureau of Indian Affairs, ``. . .to the extent that act [Omnibus Indian 
Advancement Act of 2000] describes those 10 acres of land [San Pablo] 
as Lytton's `reservation,' this provision makes clear that Lytton's 
tribal location should be considered to be Contra Costa County rather 
than Sonoma County. . .''
    The Attorney General's office also argued in that letter that the 
land under consideration never received a complete environmental review 
and should not be considered until this is done. Her office noted, 
``The final Environmental Assessment (EA) includes 32 additional acres 
that were neither included in the Tribe's application nor evaluated in 
the draft EA.'' And, ``The draft EA contained no assessment whatsoever 
of the environmental impacts arising from the acquisition of the 32 
acres or from the placement of project features on them.'' One aspect 
of the proposed project revealed for the first time in the current 
Final EA is the construction of a large effluent retention basin on a 
portion of the additional 32 acres immediately adjacent to an existing 
housing subdivision. Her office noted that the inclusion of the 32 
acres in the final EA constituted a shortening of the environmental 
review process, which ``deprives the public of the opportunity to 
comment on that portion of the proposed acquisition with the prospect 
of any response and modification by the Tribe.'' In addition, the AG's 
office noted that Proposed Alternative ``A''--wherein the tribe's 
housing units would be served by City of Windsor water and sewage 
treatment facilities--is precluded by a voter initiative limiting the 
boundaries of that area. ``Alternative A is therefore illusory.''
    The Attorney General's office noted that the National Environmental 
Policy Act of 1969 (NEPA) requires the preparation of an environmental 
impact statement (EIS) for major federal actions significantly 
affecting the human environment. Agencies are required to make diligent 
efforts to involve the public in preparing and implementing their NEPA 
procedures. In light of this 35 percent increase in acreage, and ``in a 
diligent effort to involve the public in the decisionmaking process,'' 
the AG's office recommended the tribe be required ``to produce a full 
Environmental Impact Statement (EIS) concerning this large project 
adjacent to the Town of Windsor.''
    In his 2009 letter to the BIA at the time of the Environmental 
Assessment, Paul Kelley, then-Chairman of the Sonoma County Board of 
Supervisors agreed with the Attorney General's office that the EA was 
insufficient.\15\ He wrote, in a letter to Dale Morris at the Bureau of 
Indian Affairs, ``the project is substantial in size, scope and 
affected resources. The project is inconsistent with the general plans 
and land use regulations of both the County and the Town of Windsor, 
and may have additional significant effects on [the] oak woodland and 
other biological resources, groundwater supplies, regional water 
quality, air quality, and climate, noise, traffic, and aesthetics.'' 
Supervisor Kelley noted that ``. . .the County's fundamental interest 
is full and fair disclosure of all adverse environmental impacts 
proposed in the County--before final action is taken. Meeting that 
interest here and complying with the National Environmental Policy Act 
(NEPA), requires preparation of an environmental impact statement (EIS) 
rather than an EA.'' Kelley also asserted that an EIS is necessary to 
correct the EA's misstatements, ``Without an EIS that provides correct 
information, neither the BIA nor the public can make a proper informed 
evaluation of the proposed project.''
    This ``homeland'' bill purports to be about housing, but the Lytton 
have plans for a large commercial development--a 200-room hotel, 
restaurants, shops, event center, 200,000-case-per-year winery--on land 
that's currently zoned agriculture and rural. The proposed project does 
not conform with local land use zoning. This commercial development is 
outlined in a 2015 Memorandum of Agreement the Lytton signed with the 
County of Sonoma, but it is not mentioned anywhere in this bill.\16\ 
The County negotiated its MoA with Lytton--with no public input--
obligating the County to support Lytton's fee-totrust efforts, after 
the County mistakenly assumed that the land might be taken into trust 
by the Department of the Interior.
    Although ultimately in 2012 the Final EA of the 124 acres received 
a Finding of No Significant Impact (FONSI), \17\ there has been no EA 
(nor EIS) of the entire 511+ acres the Lytton propose to take into 
trust through H.R. 597, including the large commercial project 
referenced in the County's MoA. The existing EA for the proposed 
housing in Windsor is almost 10 years out of date and it covers just 
124 acres of the 511+ acres in this bill. In its MoA with Lytton 
Rancheria, the County proposes a separate EIS on the winery/resort 
project; however, to determine the full impact on the region, and 
enable proper public input, it is necessary to complete an EIS on the 
entire Lytton acreage referred to in H.R. 597, including all proposed 
projects. Completing an EA or EIS as separate, piecemeal projects, does 
not adequately demonstrate the full environmental impact of the 
projects on the region, including the Town of Windsor.
    And, because this land is outside of Windsor's Urban Growth 
Boundary (UGB), there is no assurance of receiving environmentally 
responsible municipal water or sewer. A majority vote of the Town of 
Windsor residents is required to extend the Town of Windsor's water & 
sewage services to this--and any--property outside of the Town's UGB. 
There would be many other irreparable environmental impacts, for 
example, clear-cutting a grove of 1,500 historic oak trees. In 
addition, the proposed commercial developments outside of Windsor are 
on narrow country roads inaccessible to Highway 101. This is a key 
consideration in times of emergency--such as the devastating fires the 
County experienced in October, 2017.
    The Town of Windsor has recognized these significant concerns with 
two resolutions in 2002 and 2009 ``Opposing Reduction of Health, Safety 
and Zoning Standards by Development on Land Adjacent to the Urban 
Growth Boundary by the Lytton Band of Pomo Indians.'' \18\
    In 2017, the Lytton purchased from Salvation Army 564 acres of 
contiguous land adjacent to their historic rancheria at Lytton Springs, 
and to Highway 101. \19\ If it is determined that it is appropriate for 
the Lytton to have a reservation in both Contra Costa County and Sonoma 
County, then this site is a far more appropriate location for the 
proposed Lytton development, given its proximity to Highway 101, and 
its previous uses for both residential and commercial purposes. The 
Lytton Springs property should be given serious consideration before 
any action is taken on H.R. 597.

Supporting Documents *
---------------------------------------------------------------------------
    * The information referred to has been retained in the Committee 
files.
---------------------------------------------------------------------------
    1. Petaluma City Council to Senators Feinstein and Harris, Sept. 
18, 2017
    2. Petaluma City Council to Senators Feinstein and Harris, November 
6, 2017
    3. Athas to Senators Feinstein and Harris, March 13, 2018
    4. Office of the Governor to BIA, Oct. 8, 2009
    5. Lytton Historical Documents from the National Archives, 1927-
1953
    6. Mitchell to BIA, Dec. 20, 2016
    7. History of Lytton Rancheria by Mike Bojanowski, 1990
    8. Scotts Valley Band of Pomo Indians of the Sugar Bowl Rancheria, 
et al. Plaintiffs, v. United States of America, et al., Defendants, 
Stipulation for Entry of Judgment (Lytton), 1991
    9. ``Pomos Homes on Hold,'' by Sam Kennedy, The Press Democrat, 
August 4, 2002
    10. Fee to Trust Application for Lytton Rancheria, 2009
    11. Lytton Draft Environmental Assessment, 2009, http://
www.lyttonhousingea.com
    12. Amended Fee to Trust Application for Lytton Rancheria, 2011
    13. Lytton Final Environmental Assessment, 2011, http://
www.lyttonhousingea.com
    14. Office of the Attorney General Kamala Harris to Bureau of 
Indian Affairs, 2011
    15. Sonoma County Board of Supervisors Chairman Paul Kelley Letter 
and EA Comments, October 8, 2009
    16. County of Sonoma Memorandum of Agreement with Lytton Rancheria, 
2015
    17. FONSI, http://www.lyttonhousingea.com
    18. Windsor Town Council, Resolutions No. 1300-02 and No. 2458-09
    19. Map, Town of Windsor, San Pablo, Lytton Springs

    The Chairman. Thank you, Mr. Healy. Mr. Krauch?

STATEMENT OF WILLIAM ``BILL'' KRAUCH, CHAIR, SANTA YNEZ VALLEY 
                           COALITION

    Mr. Krauch. Thank you, Chairman Hoeven and Vice Chairman 
Udall, for holding this hearing today, and for the opportunity 
to testify on H.R. 1491.
    We strongly oppose this bill because of its significant 
adverse effects to the community in the Santa Ynez Valley. I 
also want to especially thank Senators Feinstein and Harris for 
ensuring this legislation receives careful examination and 
thoughtful consideration.
    While this is a California-specific issue, all Committee 
members need to be made aware of how the abuse of the Federal 
fee-to-trust process would be endorsed by this bill and could 
also increasingly affect communities in your own home States.
    I am Bill Krauch, Chair of the Santa Ynez Valley Coalition 
and resident of the valley for 36 years. The coalition is a 
local citizens group whose members have worked for years to 
preserve the undeveloped and agriculture areas in the Santa 
Ynez valleys. The property addressed by the bill at Camp 4 and 
its uses have been the subject of much discussion over the 
years. It is 1,400 acres of farmland and open space that is the 
gateway to the Santa Ynez Valley.
    In 2010, the tribe purchased Camp 4 from the heirs of 
former TV star Fess Parker for $44 million. Parker had 
unsuccessfully tried to develop Camp 4 into a million-square 
foot resort by himself and in partnership with the tribe. All 
were rejected as an affront to the county's land use plan and 
the result that would destroy the character of our valley.
    Shortly after the Chumash acquisition, the tribe commenced 
efforts to have the Federal Government take the land into trust 
on their behalf. After an inadequate analysis, the BIA approved 
this request, as they have every other fee-to-trust request in 
the western region. Santa Barbara County, other local 
organizations and individuals legally challenged the BIA's 
actions. However, our administrative appeal rights to challenge 
this, what we believe to be an illegal fee-to-trust decision, 
were taken from us in the waning hours of the Obama 
Administration when the BIA approved the Chumash fee-to-trust. 
The application notwithstanding, there was strong local 
opposition without a sufficient record to make a final 
decision.
    The coalition has now gone to Federal court to challenge 
the BIA's approval of fee-to-trust for Camp 4, which brings us 
to the bill you are hearing testimony on today. We strongly 
believe that absent significant changes, the Committee should 
reject this bill. It is the product of a badly-flawed 
negotiating process between the tribe and Santa Barbara County, 
where the board of supervisors was effectively bullied into 
signing a weak, fiscally irresponsible memorandum of agreement. 
As was repeatedly disclosed by the board of supervisor chair, 
house congressional leaders effectively demanded that the 
county sign an agreement with the tribe, or they would enact 
1491 with few restrictions on the tribe's use of Camp 4.
    Specifically, we think the following changes are needed to 
resolve issues associated with the development of Camp 4. 
First, we must address the tribe's housing and community 
facility needs, but not on Camp 4. The tribe owns property 
better suited to safely accommodate these interests with much-
reduced impact on the existing community.
    Second, extend the length of the agreement. The MOA expires 
in 2040, approximately 22 years from today. Third, protect 
Santa Ynez's water. We are very concerned about what water 
rights are conveyed to the tribe from this legislation, and 
that this issue must be clarified in H.R. 1491 to avoid 
substantial litigation in the future.
    Fourth, allow citizen suits to enforce the MOA. Santa 
Barbara County is the only part that can enforce the MOA's 
terms on behalf of the county's citizens. Given the county's 
lack of leverage, as evidenced in the Chumash negotiations, we 
only seek this request to ensure that the obligations regarding 
Camp 4 are enforced.
    Finally, prevent a gaming bait and switch. While H.R. 1491 
permanently prohibits gaming on Camp 4, it does not prevent 
expansion of gaming by the Chumash. When the new homes are 
built on Camp 4, the homes on the existing reservation could be 
razed, and that land could be used to build a second casino or 
significantly expand the existing one.
    In closing, rather than legislate outcomes on individual 
land disputes like this one, the Committee should instead act 
to reform the fee-to-trust process, as the Senate came close to 
doing in the last Congress. Thank you for the opportunity to 
share our views. We understand and recognize that the Chumash 
are our neighbors, and we are committed to helping them address 
their housing needs. All we are asking is the same thing that 
is asked of every non-tribal resident in the valley, to help us 
conserve its character and resources for all future 
generations. Thank you.
    [The prepared statement of Mr. Krauch follows:]

Prepared Statement of William ``Bill'' Krauch, Chair, Santa Ynez Valley 
                               Coalition
Introduction & Overview
    Thank you Chairman Hoeven and Vice Chairman Udall for holding this 
hearing today and providing us the opportunity to testify on H.R. 1491, 
a bill we strongly oppose because of its significant adverse effects to 
the community in the Santa Ynez Valley of California. I also want to 
especially thank our Senators, Senator Feinstein and Senator Harris, 
for their commitment to ensuring that this legislation receives close 
examination and thoughtful consideration. While this is a California-
specific measure, all Committee members need to understand that this 
legislation's endorsement of an abuse of the fee-to-trust process could 
very well set a national precedent and lead to an avalanche of similar 
requests for Congress to intervene in fee-to-trust requests in Members' 
home states.
    I am Bill Krauch, the Chair of the Santa Ynez Valley Coalition and 
a resident of the valley for the past 36 years. The Santa Ynez Valley 
Coalition is a local citizen's advocacy group whose members have worked 
for years to preserve the undeveloped and agricultural areas around 
Santa Ynez from over-development. The mission of the Coalition is to 
ensure that Santa Ynez Valley residents have a strong voice in land use 
decisions affecting our water, environment, public safety, and economy. 
Our education and outreach efforts focus on the need to maintain local 
control of land use in our community, a principal at grave risk if H.R. 
1491 is enacted.
    Our members--many lifelong neighbors and friends of the Chumash--
are strongly supportive of the Tribe's efforts to better address their 
housing and community facility needs. However, whatever steps that are 
taken should be done in a manner consistent with existing local land-
use planning guidance and regulations which every other property owner 
in the County must comply. Numerous Administrations have been before 
this Committee in recent years to implore action to reform the fee-to-
trust process to protect the jurisdiction rights of local communities, 
and we join them in that call. Congress is ill equipped to insert 
itself as zoning commissioners in communities with tribal interests.
Background & History
    To better understand our concerns about the impacts of H.R. 1491, 
some context is in order regarding the land which would be placed in 
trust for the Chumash, and how it may be developed in a way 
inconsistent with the community's wishes. The Santa Ynez Valley--
located in central Santa Barbara County between the Santa Ynez and San 
Rafael Mountains--has a population of just over 20,000 with its small 
towns linked by rural roads weaving through fertile farmlands, ranches, 
and open space. The Los Padres National Forest, home to the condors, 
overlooks this Valley, as does President Reagan's beloved Rancho Cielo. 
The local economy in the Valley revolves around agriculture and tourism 
and its land use plan restricts building heights and prohibits 
commercial box stores and fast food restaurants. \1\
---------------------------------------------------------------------------
    \1\ Santa Ynez Valley Community Plan, October 2009--http://
longrange.sbcountyplanning.org/planareas/santaynez/syv_cp.php
---------------------------------------------------------------------------
    One-mile northeast of the Town of Santa Ynez lies Camp 4, a 1,400-
acre parcel of open space and agricultural land--the land that the 
Tribe wishes to put into trust via H.R. 1491. As you cross through the 
San Marcos pass in the Santa Ynez Mountains on Highway 154, Camp 4 is 
the gateway to the Santa Ynez Valley. It features the largest aquifer 
in the area as well as supporting wildlife and plant species that are 
important to conserve, with its variety of habitats including 
grasslands, oak savannas, and riparian. In fact, much of the Camp 4 
parcel is presently covered by ``Williamson Act Agreements'' which are 
stateenforced contracts entered into with local landowners to keep land 
in agricultural use or to conserve it as open spaces. It is presently 
zoned as such to allow a density of only one house per 100 acres.
    In 1998, Camp 4 was purchased by a private landowner, the former TV 
star Fess Parker, and he sought to up-zone the property to increase 
development density so that he could build a large resort and 
additional residential units. He was denied that rezoning repeatedly by 
Santa Barbara County, who believed that such a use was highly 
inconsistent with the local, lightly travelled roads and surrounding 
agricultural lands. In 2004, Parker and the Chumash jointly announced a 
plan to place Camp 4 into ``trust'' and make it part of the reservation 
to circumvent these local land use restrictions. If successful, this 
scheme would have allowed Parker's vision of massive development on 
Camp 4 to become a reality. However, after this announcement the 
proposed partnership was never finalized.
    In 2010, the Tribe purchased Camp 4 from Parker's heirs for $44 
million and shortly after that, commenced efforts to have the federal 
government take the land into trust on their behalf. In June 2013, the 
Pacific Regional Director of the Bureau of Indian Affairs (BIA) 
approved the Tribe's application for a Tribal Consolidation Area (TCA) 
covering 11,500 acres within which the 1,400-acre Camp 4 parcel is 
located. If enacted, this TCA would have significantly reduced the 
standard of review of the Tribe's development plans for Camp 4 and all 
lands within the TCA. Later that year, faced with appeals and public 
protests, the Tribe withdrew its application for the TCA which the BIA 
dismissed without prejudice. However, the BIA nonetheless then 
improperly and illegally used these reduced standards to analyze the 
Chumash's fee-to-trust application for Camp 4. As a result, Santa 
Barbara County, members of the Santa Ynez Valley Coalition, and other 
local organizations and individuals all legally challenged the BIA's 
actions in this regard.
    While the County and community were still in the process of 
exercising our rights to appeal the BIA's actions, our right to appeal 
was unceremoniously stolen from us in the waning hours of the Obama 
Administration in the dark of night. The BIA approved the Chumash fee-
to-trust application notwithstanding the strong local opposition and 
without a sufficient record to make a final decision. In doing so, the 
BIA denied due process for the non-Indian communities and residents 
adversely impacted by potentially unregulated land use on an expanded 
Chumash reservation. This action vitiated pending administrative 
appeals of affected communities, organizations and residents who were 
following the current laws to have their point of view heard. Despite 
this action, the current Administration is still reviewing the matter 
and has refused to publish a final decision in the Federal Register, 
which is one reason why the Chumash are here asking the Congress to 
over-ride the process the Congress itself put in place to adjudicate 
such matters.
    The Coalition is now supporting litigation in federal court 
challenging the BIA's approval of the Chumash's Camp 4 fee-to-trust 
application. The suit asserts that the Department of Interior's 
decision to take this action was based on an insufficient analysis of 
its environmental and other impacts as required by the federal law. If 
this suit prevails in Court, the decision to take Camp 4 into Trust 
will be reversed, and the federal government will be required to 
undertake a more thorough analysis of the impacts of this action. \2\ 
H.R. 1491 would also dismiss these appeals, further disenfranchising 
the citizens of the valley.
---------------------------------------------------------------------------
    \2\ Detailed Camp 4 history--http://syvcoalition.com/wp-content/
uploads/2018/04/Camp-4-Timeline.pdf
---------------------------------------------------------------------------
Reasons to Reject H.R. 1491
    We strongly believe that absent significant changes, the Committee 
should not support this bill. It is a product of a badly flawed 
negotiating process between the Tribe and Santa Barbara County where 
the Board of Supervisors was effectively bullied into signing a weak, 
fiscally irresponsible memorandum of agreement (MOA) whose limited 
restrictions sunset in just over two decades.
    The Committee will no doubt hear much about this MOA between the 
County and the Chumash from the bill's proponents. They will assert 
that its mere existence should justify the Senate passing this bill 
with no changes. Do not be fooled by these claims. This agreement is 
lopsided and short-term, and likely sets in motion an eventual 
overdevelopment of Camp 4 in a manner that Fess Parker proposed two 
decades ago.
    The Committee should carefully examine the back-story about this 
agreement and the evolution of the County's position so it can judge 
for itself whether it represents a meaningful agreement between the 
County and the Chumash.
    Before last year, Santa Barbara County was a staunch opponent of 
both the redevelopment of this land at all, and the Camp 4 fee-to-trust 
application. In fact, the County was so strongly opposed it testified 
in opposition to similar legislation in the previous Congress and filed 
both administrative and judicial challenges against the BIA Camp 4 fee-
to-trust decision. However, in the fall of last year, all of that 
changed.
    As the Chair of the Board repeatedly stated during several public 
meetings in 2017, House Congressional leaders effectively demanded that 
the County sign an agreement with the Tribe or they would enact H.R. 
1491 with few restrictions on the Tribe's use of Camp 4. Hence, the 
County was forced to accept a deal of far too limited duration, with 
anemic payments for utilities and other infrastructure related to Camp 
4 that is a fraction of their actual cost and which would in no way 
replace the lost tax revenue from the parcel being placed into trust.
    These were NOT good faith negotiations--evidenced by the fact that 
the MOA now requires the County to only advocate for a version of H.R. 
1491 that includes the MOA--a gag order that shows how lopsided this 
framework is. This condition alone shows why our Coalition must now 
speak for the vast majority of the Valley's residents who oppose the 
MOA as now crafted and who vigorously oppose this bill in its current 
form.
    While the MOA does limit the development on Camp 4 through 2039 to 
143 houses on one-acre improved lots and a community center, and even 
permanently bans gaming on Camp 4, it does not address the broader fee-
to-trust problem in the Santa Ynez Valley nor does it address the 
expansion of gaming in the rest of the Valley.
Proposed H.R. 1491 Fixes to Address Community Concerns
    The leaders of the Santa Ynez Valley Coalition have spent thousands 
of hours studying the MOA and speaking to our neighbors in the Valley 
about their views on its contents. From those conversations, we see a 
handful of issues that are insufficiently addressed in the MOA and H.R. 
1491 that show how flawed they really are and which must be corrected 
to resolve the development of Camp 4 in a way that the community and 
the Tribe can live in relative harmony.
1. Address the Tribe's Housing & Community Facility Needs--But Not on 
        Camp 4
    The Tribe has legitimate needs for housing and community 
facilities, but they are best addressed on smaller, but more than 
adequate parcels of land better suited to safely accommodate these 
needs. After filing for fee-to-trust status for Camp 4, the Chumash 
purchased approximately 369 acres near Camp 4 that is a superior 
alternative because:

  <bullet> It satisfies the stated needs of the Tribe for 143 homes on 
        one acre improved lots and a 30 acre tribal center which would 
        consume about 200 acres of the parcel, virtually separated only 
        by a 2 lane roadway;

  <bullet> It is physically closer to the existing reservation;

  <bullet> It is adjacent to existing town infrastructure and would be 
        an extension of existing residential development areas versus 
        ``leapfrogging'' to Camp 4;

  <bullet> It is located so that the County would probably grant zoning 
        thereby avoiding the fee-to-trust process on that parcel 
        altogether;

  <bullet> It lowers building cost to the Tribe versus a development 
        spread out over 1,400 acres; and

  <bullet> It is bounded by two major highways, versus two rural roads 
        adjacent to Camp 4, thereby providing superior ingress and 
        egress.

    We would respectfully request that the Committee and tribe consider 
these other, more suitable options closer to town for the tribal 
housing and community facility needs that would prevent fracturing the 
undeveloped 1,400 acres of Camp 4.
2. Extend the Length of the Agreement
    As currently configured, the restrictions contained in the Tribe/
County MOA will expire in 2040, approximately 22-years from today--even 
though most homeowners secure 30-year mortgages. Presumably, the Tribe 
is then allowed to do anything it wants on Camp 4 except gaming, 
including building a massive additional amount of commercial and 
residential development, as it proposed in a public meeting in March 
2016--a plan very similar to that first proposed by Fess Parker.
    As such, the Coalition strongly recommends any action on H.R. 1491 
include a provision that continues the use restrictions for Camp 4 
contained in the MOA beyond 2040 until subsequently changed by a future 
Congress. If the Tribe says its intention for Camp 4 is only 143 houses 
on one-acre improved lots and a tribal center, we should take the Tribe 
at its word and make that use permanent. Stability of local land use 
values and preservation of the Valley's fundamental character and 
quality of life are only protected with a far longer term of land use 
restriction than the current 2040 date.
3. Insufficient Protection of the Valley's Water Supply
    We are very concerned that the agreement is unclear about what 
water rights are conveyed to the Tribe from this legislation and that 
this issue must be clarified if H.R. 1491 is to help avoid substantial 
litigation over these rights in the future. Camp 4 sits on the Valley's 
major aquifer. The Valley has suffered from severe drought for a number 
of years as attested to by devastating wildfires earlier this year and 
has as a result imposed water use restrictions on residents.
    The Tribe's current hotel and casino facilities nearby are already 
the largest users of local water in the Town of Santa Ynez and H.R. 
1491 does not limit water use to that which would support the 143 homes 
on one-acre improved lots and tribal center or prohibit the export of 
water to other Tribal-held lands. While the Non-Intercourse Act limits 
off reservation water marketing unless approved by the Department of 
Interior, the reserved water rights or Winters doctrine is less clear 
in what uses a Tribe can exercise so long as the water supports ``the 
purpose of the reservation.'' Agricultural use is presumed under 
Winters, but other uses such as commercial, domestic and municipal 
activities are generally permitted here too.
    Suffice it to say that the precedent setting framework embodied in 
H.R. 1491 must be clarified to guarantee that ranchers and farmers and 
other homeowners in the Santa Ynez Valley have access to this precious 
commodity to maintain their livelihood. The legislation must clarify 
these rights and prevent a compromised position for the thousands of 
local residents who will not live on the Camp 4 parcel.
4. Third Party Enforcement of the MOA
    Under the Chumash-County MOA, and the terms of H.R. 1491, Santa 
Barbara County is the only party that can enforce its terms on behalf 
of the County's citizens. Inspections to determine compliance are to be 
done by third parties hired and paid by the Chumash, a mechanism 
fraught with potential conflicts of interest. The County's severe 
financial position--well documented by the Board of Supervisors in 
virtually every public meeting they hold--makes it unlikely they will 
spend scarce resources on legal help to compel the Tribe's adherence to 
the terms of the MOA or any subsequent restrictions. Given this fact 
and the County's weak negotiating posture over the last year, the 
Coalition believes H.R. 1491--if it advances--must be altered to allow 
third party enforcement of the County's obligations to enforce the 
agreement. We do not seek with this request to interfere with the terms 
of the County's agreement with the Tribe, only to make sure that the 
Tribe lives up to its obligations to ensure the restrictions on Camp 4 
are enforced.
5. Prevent a Gaming ``Bait and Switch''
    While H.R. 1491 permanently prohibits gaming on Camp 4, it does not 
prevent expansion of gaming by the Chumash. We believe that the bill 
should prohibit a ``bait and switch'' where existing houses are 
demolished on the present reservation after homes are built on Camp 4 
or elsewhere, and that land is then used to build a second casino or 
significantly expand the existing one. H.R. 1491 has been widely 
advertised by its proponents as having absolutely nothing to do with 
gaming. Unfortunately, the bill as drafted could lead to a dramatic 
expansion of this activity despite the fact that the Valley already 
struggles with the crime, drug trafficking, public health challenges, 
traffic congestion and other public safety issues associated with the 
current gaming facility.
What's Really Needed--Fixing the Broken Fee-to-Trust Process
    No one has to remind this Committee that there are serious problems 
with the existing fee-to-trust program as authorized by the Indian 
Reorganization Act. This program is in pressing need of reform, 
according to the testimony before this Committee by numerous recent 
Administrations. Bills have been introduced, and hearings held. The 
current Administration has stated to you recently that it is presently 
debating recommendations to reform the process.
    In our own back yard, the Western Regional Office of the BIA 
approved every fee-totrust application from 2001 through 2011--acting 
as little more than a rubber stamp for California Tribes and in the 
process and ignoring the legitimate concerns of local communities. \3\ 
We believe strongly that the process must be transformed to ensure a 
balance between tribal and neighboring community interests--to avoid 
frivolous obstructive tactics but simultaneously guarantee that fee-to-
trust applicants abide by rules that protect our natural resources like 
water and avoid leaving local taxpayers to foot the bills for traffic 
congestion and other public infrastructure. We believe strongly that 
the Camp 4 trust acquisition is an abuse of the fee-to-trust process 
and that if a more neutral analysis were undertaken of it, other more 
suitable options would be identified that would enable the tribe to 
address its housing and community facility needs with much-reduced 
impacts to the surrounding community and environment.
---------------------------------------------------------------------------
    \3\ Waples, Kelsey. ``Extreme Rubber-Stamping: The Fee to Trust 
Process of the Indian Reorganization Act of 1934.'' Pepperdine Law 
Review, 2012, 101-53. http://syvcoalition.com/wpcontent/uploads/2018/
04/Pepperdine-Law-Review-Waples-Apr12.pdf.
---------------------------------------------------------------------------
    Abuses of the fee-to-trust program such as what is occurring in the 
Santa Ynez Valley hurt the program for ALL tribes that have legitimate 
needs to increase the land base of their respective reservations. We 
believe that further consideration of H.R. 1491 should be suspended 
until fee-to-trust reforms are considered by Congress and the 
Administration.
Conclusion
    In closing, thank you for the opportunity to share our views. As we 
stated at the outset, enactment of H.R. 1491 in its current form 
represents a dangerous erosion of the ability of local governments to 
engage in meaningful land planning, the consequences of which will 
spread far beyond the Santa Ynez Valley. Additionally, we understand 
and recognize that the Chumash are our neighbors, and we are committed 
to helping them address their housing needs. All we are asking is the 
same thing that is asked of every nontribal resident in the Valley, to 
help us conserve its character and resources for all future 
generations.

    The Chairman. Thank you, Mr. Krauch.
    Mr. LaCounte, how do we incentivize local, non-tribal 
governments to work with tribes on these types of trust 
applications? In other words, what can you do to bring the 
parties together?
    Mr. LaCounte. We certainly will encourage tribes to enter 
into MOAs with local governments. We strongly advise it 
throughout the process, from start to finish. It always works 
better when there is a clear communication line and there is 
clear land use plans in place.
    The Chairman. Do you have recommendations in this case?
    Mr. LaCounte. I believe that this case, these cases, they 
have done an adequate job, the tribes have. And I think they 
have reached out to the local governments and entered into 
agreements with them. I was very happy when I read the briefing 
on this that they had done that.
    The Chairman. For the Chumash land referred to as Camp 4 in 
H.R. 1491, it has already been taken into trust by the 
Department of Interior. As you know, the bill would essentially 
reaffirm the Secretary's decision to take Camp 4 into trust for 
the benefit of the tribe.
    Unlike the memorandum of agreement for the Lytton trust 
acquisition, under H.R. 597, the Secretary himself has approved 
the memorandum of agreement pursuant to Section 2103 of the 
revised statutes. What is the purpose of having the memorandum 
of agreement approved by the Department of Interior?
    Mr. LaCounte. My understanding is that the regional 
director at that time and the region folks from the Bureau of 
Indian Affairs took it to our solicitor's department, our legal 
people, and they made a determination in Santa Ynez that that 
particular one needed to be approved under 25 U.S.C. Section 
81. It was purely advice we received from our attorneys.
    The Chairman. So was that request, this is not a standard 
practice or requirement for taking land into trust?
    Mr. LaCounte. It is not.
    The Chairman. Or should it be?
    Mr. LaCounte. Tribal governments are sovereign nations 
within this Nation. They should be able to negotiate with other 
governments within this Nation without our interference. We 
feel that perhaps it might infringe upon tribal sovereignty.
    The Chairman. Chairman Mejia, during a recent staff visit 
to the area where you seek to move land into trust, it was 
apparent that your neighbors utilize a high level of water for 
the nearby wineries. It is my understanding that the 
surrounding businesses have all agreed to follow the county's 
general use water agreement. Does the Lytton Band intend to 
follow the Sonoma County general use plan as it pertains to 
water usage?
    Ms. Mejia. We have dealt with the county, we are willing to 
work with our neighbors and the county to ensure that any use 
or increases, if any, are mitigated. The tribe uses water on 
the property currently, as it owns the land in fee, and plans 
to use the same amount or less water on the property in the 
future.
    The Chairman. And you have already indicated that you agree 
to forego all gaming on the land parcels that are being moved 
into trust?
    Ms. Mejia. Yes, sir.
    The Chairman. Mr. Udall.
    Senator Udall. Mr. LaCounte observed in his testimony that 
certainty of title is pivotal to the tribe's ability to provide 
essential government services to its citizens, such as housing, 
education, health care, and promote tribal economies. Can you 
both explain how passing this legislation, I am asking the 
chairman and chairwoman, can you both explain how passing this 
legislation would provide your tribes the certainty Mr. 
LaCounte described? Chairman Khan, why don't you start out?
    Mr. Khan. Mr. Vice Chairman, self-determination is vital in 
Indian Country. Federal programs and services that are 
available on Federal lands are imperative to success of tribal 
governments. Enhancing our housing opportunities is really a 
continued opportunity for us to thrive culturally, through our 
customs and our traditions. It is our perspective, if we didn't 
have the ability to have trust lands, that we would probably be 
extinct today. So it is about cultural survivability for the 
future.
    Senator Udall. Chairwoman Mejia?
    Ms. Mejia. It is vital for Lytton Rancheria to establish a 
land base for our homeland as we have been promised. Our tribe 
was subject to a wrongful termination which forced us to live 
apart from our community. It is our way of life as Indian 
people to live as a community and to provide governmental 
services to our people.
    Senator Udall. Thank you very much for that answer.
    I also understand a number of tribal officials from both of 
these tribes have traveled here a long way from California, so 
welcome to all the tribal officials who are here in the 
audience. I think also a county supervisor from Sonoma County 
is also present today. So thank you for coming to the hearing.
    As I noted in my opening, I am concerned with the 
department's proposed revisions to the land-into-trust process. 
As NCAI, the National Congress for American Indians, observed, 
off-reservation acquisitions are vital for Indian tribes. Some 
tribes are landless. Others have only small, diminished land 
bases. For an Administration supposedly focused on 
streamlining, it strikes me as odd that the department is 
looking at regulations that will make the process more 
difficult, more time-consuming and more costly, all at Indian 
Country's expense.
    Mr. LaCounte, I have some factual questions for you on this 
issue. How many land-into-trust applications have tribes 
submitted to and are pending with the BIA?
    Mr. LaCounte. There is a little over 1,300 that are 
pending.
    Senator Udall. And these are since the start of the new 
Administration, or just these are pending?
    Mr. LaCounte. Just pending.
    Senator Udall. Okay. How many applications relate to off-
reservation acquisitions?
    Mr. LaCounte. A little over 200.
    Senator Udall. Two hundred out of that 1,300. How many of 
those applications are for gaming?
    Mr. LaCounte. My understanding is there are 21.
    Senator Udall. Twenty-one out of the 1,300. Since this 
Administration began, how many acres of land has the department 
acquired under its IRA authority to take land into trust?
    Mr. LaCounte. Just under 16,000.
    Senator Udall. Sixteen hundred?
    Mr. LaCounte. Sixteen thousand.
    Senator Udall. Sixteen thousand acres that you have taken 
into trust in the 14, 15 months?
    Mr. LaCounte. Correct.
    Senator Udall. To the two chairs, your testimony highlights 
why the land-into-trust process is so important for tribes, 
particularly those with little or no land base. Could you 
please elaborate on your testimony and explain why a permanent 
homeland is so important to your tribe? Why don't we reverse 
the order and have Chairwoman Mejia begin there?
    Ms. Mejia. Having a permanent homeland for our people 
provides a continuity for the tribal government and for taking 
care of our members as time goes on. As you know, Indian people 
think seven generations ahead. So having this land enables the 
tribal government to plan for the future of its members.
    Senator Udall. Thank you. Chairman Kahn?
    Mr. Kahn. I certainly agree with Chairwoman Mejia. But 
tribes, we look at land in a way that is perpetual. When we set 
foot on land and inhabit, we look into the future, hundreds and 
hundreds of years into the future. So again, it is vital for 
self-determination and for the strength of our customs and 
traditions through many, many generations. It is about planning 
for all eternity.
    Senator Udall. Thank you very much for those answers. Thank 
you, Mr. Chairman. I yield back.
    The Chairman. I would ask Mr. Healy and Mr. Krauch, are 
there any provisions that they could include in the memorandum 
that would garner support for putting land into trust?
    Mr. Healy. If I may start, Mr. Chairman. Two points on 
that. First of all, I very much appreciate the Chair's offer to 
modify the MOU with the county to permanently ban gaming on any 
future lands, as well as this property taken into trust in 
Sonoma County, if that is what I understood the offer to be. I 
would suggest that that should not be accommodated through 
modifying the MOA with the county, because Section 5 of the 
current bill has this rather strange set of compromise 
provisions on restrictions on gaming for limited periods of 
time.
    And I really think that Congress should say what it means 
and use precise language in these bills, because this would 
essentially be an override of the language in Section 5 of the 
current bill. I think Section 5 should actually be modified to 
include that proposal. Because that would be permanent until 
Congress changes it. But the MOA between the county and the 
tribe could be change by those parties at any point in the 
future.
    So I think that would require an amendment to the current 
bill. I assume it would mean it would have to go back to the 
House for concurrence and amendments. But that would 
memorialize what the offer is on the table now in a very 
permanent way.
    The second thing I would say, this isn't just a problem 
with the Federal process, but the process that was followed 
locally lacked transparency as well. What the public understood 
to be coming forward initially for a long time until the last 
moment was essentially just a housing, a land-into-trust 
application, which I think the community would largely be fine 
with. It is this large commercial development that hasn't had 
an environmental analysis that is causing a lot of the angst, 
the 200,000 case winery, the 200-room resort, which the 
environmental assessment has not been done. It has been 
promised for the future. But it seems to be putting the cart in 
front of the horse to be approving the land into trust without 
that work having been done. I will stop at that point.
    The Chairman. To the extent that the tribe is likely or 
willing to enter into that discussion, it also would probably 
mean on your part, or the community's part, that they would 
then have to get to the point of agreement. In other words, 
they don't have too much incentive to make those adjustments if 
you are still going to impose the legislation, do you follow 
me? So it seems to me if you offer those as potential 
solutions, then it would also require your approval, that if 
there is some accommodation that is agreed to.
    Mr. Healy. I think there is a willingness to have that kind 
of a conversation. The problem is that this MOA with the county 
was kind of cut between the parties without any public input. 
And now it is locked in and there is no ability to revisit 
those issues. If this legislation passes, there would be no 
further opportunity. But if this is put on hold, and people are 
told to reopen it and talk about it, then that is a 
conversation that can certainly take place. I would certainly 
be willing to be part of it.
    The Chairman. I am just suggesting that you have that time 
now to have that conversation, should you desire to have that 
conversation.
    Mr. Healy. Thank you, Mr. Chairman.
    The Chairman. Mr. Krauch?
    Mr. Krauch. Yes. We obviously understand that the tribal 
community has the right of self-determination to foster 
economic development, and the Chumash have done an outstanding 
job with their economic development. But what they do need is 
the housing. We have proposed an alternative site that is 
closer to the reservation, bounded by better roads, better 
ingress and egress and can accommodate the needs of 143 one-
acre lots and a 30-acre community center.
    If that is not possible, what we would like to see is an 
agreement that extends beyond 20 years, because after 20 years 
the tribe has the right to develop the property in any way they 
see fit. We would also like further clarification and better 
legalese on the water rights. We understand the Intercourse Act 
is probably not an issue here. Our concern is with winters.
    Third party enforcement, we are a little bit concerned 
about the county making any enforcement, since they have a lot 
of deficits that are being faced as a result of the floods and 
the fire. The casino expansion probably concerns the community 
to a great degree. They recently expanded it with a 12-story 
hotel. It has resulted in increased traffic and other issues, 
burdening the community, that we don't want to see increase. So 
we would hope that there would not be another casino or an 
expansion of the existing casino which they have the right to 
do under the California compact.
    The Chairman. Chairman Kahn, any thoughts in regard to 
those comments?
    Mr. Kahn. I certainly appreciate the alternative land 
bases, but we purchased the property, Camp 4, in 2010. Started 
negotiating with the county in 2011. The property Mr. Krauch 
refers to as an alternate was purchased by the tribe in 2015. 
So we are already four years into the process.
    In addition, the tribe tried to purchase two contiguous 
parcels for purposes of housing. Some of the same members of 
the Coalition and some of the opponents actually purchased one 
of the parcels, rather than the tribe being able to purchase 
it, so we could not develop it, or take it into trust, and 
convinced other neighboring landowners not to sell to the 
tribe.
    So Camp 4 was the first available parcel within a 
reasonable amount of distance within our aboriginal territory 
that made sense for housing. And it is right next to a housing 
development that I believe Mr. Krauch actually, certainly 
resides in as well.
    And the other question, I think you had a two-part 
question.
    The Chairman. Well, it is just that in both cases, in 
regard to both pieces of legislation, you have some period of 
time you are to have a dialogue. Both those have passed the 
House, true?
    Mr. Kahn. Yes, sir.
    The Chairman. So if you are going to have your dialogue, 
now is your time. You have some period of time to get that 
done. So I am just encouraging parties on both sides to have 
that dialogue. Clearly, you have been doing some things, which 
I commend you for. I am just trying to find out if there is 
some way to reach resolution here, or it will be done through 
the legislation. We have yet to predict that outcome. Both 
bills did pass the House, which I would think would encourage 
both of you gentlemen to find some common ground.
    On the flip side, in the Senate, there is a lot of 
procedural rules, which means you have some incentive as well, 
both chairmen. So I am just encouraging you to have that 
dialogue.
    And then just a couple questions for Mr. LaCounte before I 
turn to the Vice Chairman to see if he has any final questions. 
What is the average time it takes for land into trust under 
Part 151? How long does that process typically take?
    Mr. LaCounte. A very long time.
    The Chairman. It does, right.
    Mr. LaCounte. The quickest I have ever seen one done was 
six months, and I used to study this stuff. And that was very 
fast for this process.
    The Chairman. Typically, we are talking years?
    Mr. LaCounte. Correct.
    The Chairman. In some cases, quite a few years.
    Mr. LaCounte. Quite a few years, yes.
    The Chairman. And then I have one question for you, Mr. 
LaCounte, on an unrelated subject, so I had better turn to my 
Vice Chair to see if he has any other questions. All right.
    As you know, in the recent government funding bill, we 
worked to include Department of Interior's Facilities 
Replacement and New Construction Program for Indian Tribal 
Justice Facilities. Will the BIA abide by the intention of this 
program and allocate sufficient funds to tribes to reconstruct 
and replace facilities?
    Mr. LaCounte. Yes, sir.
    The Chairman. As the Committee report states, the BIA had 
compiled a list of facilities in need of replacement, and 
Congress directed them to use that list when allocating funds 
for this program. In allocating these new funds, will BIA use 
the current list of facilities in need of replacement as 
directed by Congress?
    Mr. LaCounte. Yes.
    The Chairman. Will tribes that have been waiting the 
longest and have shovel-ready projects be given priority?
    Mr. LaCounte. I don't have the answer to that. I tried to 
find the answer to that question, but no one responded to me. 
But I will certainly get back to you with an answer to that 
question.
    The Chairman. Thank you, Mr. LaCounte. I appreciate it very 
much.
    Vice Chairman?
    Senator Udall. I am good.
    The Chairman. Okay. With that, I would like to thank the 
witnesses. Members may submit follow-up questions, so you may 
get some follow-up questions. We would request that that be 
done within two weeks. So for two weeks, you may get some 
written questions. So again, thanks to all of you for your time 
today. We appreciate it.
    With that, the hearing is adjourned.
    [Whereupon, at 3:29 p.m., the hearing was concluded.]

                            A P P E N D I X

Prepared Statement of Prepared Statement Hon. James Gore, Chairperson, 
                   Sonoma County Board of Supervisors
    On behalf of the Sonoma County Board of Supervisors I would like to 
thank Chairman Hoeven, Vice Chairman Udall, and members of the 
Committee on Indian Affairs for the opportunity to submit this 
testimony in support of H.R. 597--the Lytton Rancheria Homelands Act of 
2017. My name is James Gore, and I serve as the Chairperson of the 
Sonoma County Board of Supervisors and in this position I submit this 
letter on behalf of the entire Board. This bill, in many ways, 
exemplifies the type of relationships that tribes and local governments 
must pursue given a flawed fee-to-trust process which is characterized 
by both a lack of transparency from the Bureau of Indian Affairs on 
roles and authorities, and a lack of objective criteria for decisions. 
Ironically, the failures in the existing process serve to more often 
pit local governments and tribes against each other rather than 
facilitate identification of mutual interests.
    As you know, the California State Association of Counties (CSAC), 
of which Sonoma County is a member, has been very vocal about reform of 
the fee-to-trust process. Cooperation between local jurisdictions and 
tribal governments goes a long way towards the goal of overcoming the 
impediments of the current process. One concern often voiced is that 
impacts related to the acquisition be fully mitigated--both for the 
short and long term. The best way to demonstrate that the off-
reservation impacts of a project have been sufficiently addressed is 
through a voluntary intergovernmental agreement between the tribe and 
local jurisdictions. Sonoma County believes that the Sonoma County--
Lytton Rancheria Memorandum of Agreement (MOA) is an example of the 
type of intergovernmental understandings that must be reached on fee-
to-trust projects to ensure that off-reservation impacts are mitigated.
    Sonoma County is home to five federally-recognized tribes, two of 
which operate casinos. While the County opposes gaming, we nonetheless 
have intergovernmental agreements with three of the five tribes, 
including the two that operate gambling facilities. We are also in 
conversation with the other two tribes to work towards memoranda of 
agreement with respect to pending fee-to-trust requests. We commend the 
leadership of the Lytton Rancheria of California for engaging in a fee-
to-trust consultation process where we could work together on a 
government-to-government basis to ensure that the Tribe's objectives 
were met and that the off-reservation impacts were mitigated through a 
judicially enforceable agreement.
Memorandum of Agreement (MOA)
    The MOA is the product of hard work among the parties that started 
about 10 years ago with the County working with the Lytton Tribe to 
address what the County saw as inadequacies in the Environmental 
Assessment of the Tribe's initial trust proposal and community concerns 
regarding gaming. The Tribe and County worked together to accurately 
identify the off-reservation impacts and, as the project changed over 
time, to build a framework that met the parties' respective interests. 
We believe the MOA, which is approved by both the Tribe and County and 
which is supported in the legislation, is now a model for cooperation 
on future development on tribal lands.
    From the County's perspective, H.R. 597 has two critical 
components. First, the legislation ensures that, in perpetuity, no 
gaming will be conducted on the lands taken into trust. While the 
Lytton Tribe did not have a stated intention to acquire the land for 
gaming purposes, the legislation helps address community and government 
concern on the issue for the long term. Second, the legislation 
recognizes and protects the MOA from any potential interference from 
the Department of the Interior. While the Tribe entered into the MOA as 
an exercise of its sovereignty, under 25 U.S.C. Section 81, the 
Department of the Interior reserves the ability to substitute its 
judgment for the Tribe's and, historically, has not played an active 
role in facilitating these types of agreements. The legislation helps 
ensure that the mutually beneficial MOA will not be disturbed.
    The MOA specifically addresses potential off-reservation impacts in 
several important respects by: (1) specifying current development 
limits and providing for tailored mitigation; (2) setting land use 
parameters and providing for environmental review of future tribal 
projects (and a conflict resolution process if there is disagreement 
over necessary mitigation); (3) prohibiting gaming (which provision is 
enhanced by the legislative ban); (4) ensuring that applicable building 
and fire code standards are met; and (5) making the MOA and compliance 
with prior NEPA identified mitigation measures judicially enforceable. 
One of the unique provisions of the MOA addresses changes in use. As 
stated above, a review process was established in the MOA by creating 
some broad parameters for future use and building in a voluntary, 
tribal driven, environmental review process, the focus of which would 
be to determine any off-reservation impacts of a proposed project. The 
MOA then puts in place a negotiation and binding dispute resolution 
process if the parties are not able to agree on appropriate mitigation. 
This approach respects sovereignty while also ensuring that off-
reservation impacts are adequately addressed in the County's view.
    The County has heard some concerns that once the prohibition on 
gaming in the MOA expires, the Tribe would be able to establish gaming 
facilities anywhere in the County without being subject to IGRA. The 
County believes this a strained reading of the language in the MOA and 
that the concerns are unfounded. However, the County requests 
clarifying language in the conference report to make clear that this is 
not the intent of the legislation.
Conclusion
    As part of the 1991 judicial settlement agreement which restored 
the Lytton Tribe, the County committed to assist the Tribe in finding 
suitable housing and economic development opportunities. The passage of 
H.R. 597 and the resulting implementation of the MOA would deliver on 
that commitment. Enactment of H.R. 597 will reestablish an historic 
homeland for the Tribe in Sonoma County while setting a course for a 
constructive intergovernmental relationship and addressing community 
concerns regarding gaming.
    Thank you for the opportunity to share these views.
                                 ______
                                 
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]                          
                                 
 Supplemental Information Submitted by the Santa Ynez Band of Chumash 
                                Indians
    Chairman Kahn, testimony received by the Committee raises several 
questions about utilization of the Camp 4 property and the Agreement 
between the County and the Tribe. Can you address the following 
questions that were raised?
    1) The Camp 4 site is not the best site for this housing project. 
The nearby, 369 acre parcel would be a ``superior alternative'' rather 
than the Camp 4 property. Do you agree and why not proceed with 
development on the 369 acre parcel?
    Answer. This assertion is inaccurate for a variety of reasons. The 
Tribe has pointed out that this parcel has been designated by the 
County of Santa Barbara as a Special Problem Overlay area. Special 
Problem Overlay (SPO) areas are so designated by the County of Santa 
Barbara Board of Supervisors' resolution. The SPO areas are proposed by 
County Public Works to identify properties that may be inappropriate 
for development. SPO areas have been identified as having one or more 
physical or geological barriers to development, such as high 
groundwater, steep slopes, flood areas, limited access, unconsolidated 
or expansive soils, or other geological problems in the County 
otherwise subject to development.
    For landowners that apply for development in a Special Problem 
Overlay area, additional permit processing steps are required in what 
is already a very difficult and expensive permit process in Santa 
Barbara County. These permits must be reviewed by the Special Problems 
Committee (SPC) which consists of all the County departments involved 
in permit approvals (Fire, EHS, Building & Safety, Flood Control, 
Roads, Surveyor). The SPC scrutinizes these development applications by 
requiring detailed engineering studies. Without approval from the SPC, 
development projects cannot move through the normal permit process. 
These additional upfront costs and mandatory SPC committee approval 
process dissuades landowners from seeking substantial development for 
property under a Special Problem Overlay.
    The parcel offered up by Mr. Krauch was first designated as a SPA 
in 1979. We do know that there has never been a request for review of 
this designation under the SPC process for this 379 acre parcel. We 
have attached the original Resolution by the County creating the SPA 
process with the field notes by the County recommending the designation 
for the 369 acre parcel.
    Finally we point out that attempting to build 143 home sites on a 
369 acre parcel would dramatically alter the density patterns that we 
have been able to ensure with the Camp 4 property. An increase in the 
density that would be required for the 369 acre parcel is totally 
inconsistent with the density patterns on all neighboring housing 
tracts.

    2. The Agreement with the County referenced in HR 1491 expires in 
2040. Why not extend the Agreement to provide greater certainty to 
interested parties past 2040?
    Answer. This Agreement is consistent with the term of the first 
Cooperative Agreement proposed by the Tribe in 2010 with a ten (10) 
year term until the expiration of its first 1999 compact which expired 
in 2020. The new Memorandum of Agreement with the County has a term of 
more than twice as long and its over twenty (20) year term now expires 
in 2040 which is the expiration date of the Tribe's new Compact.
    A core element of the Agreement is the funding that the Tribe has 
agreed to pay to the County during the term of this Agreement to 
address services needed by these residents. The commitment of the Tribe 
to this payment level must be dictated by the Tribe's ability to 
realize revenues to meet the requirements of the Agreement. The source 
of these funds is, of course, the revenues realized by Tribal gaming, 
which is controlled by the terms of the Compact with the State. The 
Tribe's compact with the State runs through 2040 at which time a 
renewal of the Compact and a renewal of the Agreement can be addressed 
concurrently. The Tribe's commitment to enter into an obligation to pay 
for services in the future runs contrary to every other government that 
cannot obligate its citizens to future appropriated funds requirement. 
This prohibition is clearly outlined under Federal Government 
regulations.
    In addition, planning restrictions and controls extended beyond 20 
years is contrary to the planning guidelines for any other level of 
government. Most governments have 20 year planning horizons and such a 
timeframe is essentially reflected in this Agreement.

    3. There is concern that HR 1491 would allow the Tribe to market 
off reservation water sales. Do you feel that there are adequate 
protections in the Agreement to prevent exporting water from the Camp 4 
parcels?
    Answer. The existing Chumash economic development and housing is 
actually water-neutral, thanks to tertiary treatment and recycling 
which allows reuse of water for a wide array of purposes. The passage 
of HR 1491 will not allow the Tribe to export water from the Camp 4 
trust lands and the Tribe testified under oath during the Committee 
hearing that it has no intention of doing so. As Mr. Krauch 
acknowledged in his testimony to the Committee, the Non-Intercourse Act 
would prevent the Tribe from exporting water from the reservation. 
Further, his concern that the Tribe could export water under the 
Winters Doctrine is a misplaced concern.
    The Winters Doctrine recognizes a reserved water right appurtenant 
to the land reserved, (here the Camp 4 trust lands), to be used on that 
land. Because the reserved water rights are appurtenant to the land, 
that water cannot severed and exported for other uses or purposes. In 
addition, reserved rights are measured as of the date the federal 
government accepts the land into trust which in the case of Camp 4 was 
January 20, 2017, which makes them junior to every other water right in 
Santa Ynez Valley.

    4. While H.R. 1491 explicitly prohibits gaming on Camp 4, testimony 
was provided that the Tribe may expand its gaming by accessing the 
existing Tribal home sites and developing there. Are these concerns 
valid?
    Answer. The erroneous argument that the Tribe would convert these 
homes, on the existing reservation, to any type of a commercial 
enterprise fails to acknowledge the responsibility that the Tribal 
government has to its citizens. Ownership of the existing homes on the 
Reservation does not terminate with the Camp 4 home sites. Camp 4 was 
purchased in 2010 by a vote of every tribal member over 18 years of age 
with a promise that every tribal member alive on that date would get a 
home site on Camp 4 that could be inherited by their children. The 
Tribe cannot trade Camp 4 homes for those on the existing reservation. 
The Tribal Government has no desire or ability to condemn existing 
housing on the Reservation for any reason including the future casino 
alleged by Mr. Krauch and his group. The same people opposed for 14 
years a tribal museum project across the street from the existing 
casino again making the unsubstantiated contention that the Tribe also 
intended to build a second casino across the street from its existing 
one.

    5. The Agreement allows only the County to bring suits against the 
Tribe for failure to adhere to the tenants of the Agreement. Why not 
allow any citizen to bring suit for failure to comply with the 
Agreement?
    Answer. The Agreement between two sovereign governments elevates 
these concerns to a public and transparent level. Violations by either 
party of any provision of the Agreement can still be appealed by 
individual citizens to their locally elected government officials. This 
was the process that Mr. Krauch and his coalition used with the County 
until the larger citizenry of the County encouraged the County to work 
with the Tribe on an Agreement. This is the essence of representational 
government. The Tribe's commitment to this Agreement is so strong that 
it has agreed to a waiver of its sovereign immunity for any violations 
of or failure to adhere to, the terms of this Agreement.

Subsequent Question Pertaining to Existing Easements on Camp 4
    After the hearing on H.R. 1491, we are aware that the Senate Indian 
Affairs Committee also received correspondence dealing with a question 
of easements on the Camp 4 property. The correspondence asserts that 
there are existing easements on the Camp 4 property that have not been 
properly recognized or recorded.
    In fact, there are two easement issues that need to be clarified 
and are addressed by the incorporation of the Environmental Assessment 
(EA) into the Memorandum of Agreement (MOU) between the County and the 
Tribe. The first is a road easement that runs North-South on the 
Western edge of the Camp 4 property but not onto the property itself. 
This easement would allow a land owner (i.e., Ms. Shepard) with 
property adjacent to the Camp 4 property to enjoy the opportunity to 
access Baseline Avenue and have a second access point to her property 
which is West and adjacent to the Camp 4 parcel.
    The EA recognizes all easements of record and explains that they 
are not affected by the fee to trust transfer. In addition, in response 
to a comment letter by the landowner referenced above, the EA further 
agrees to recognize all access easements and specifically includes the 
Shepard easement. That EA/environmental document, recognizing this 
easement, was included and adopted by the County as part of the MOU and 
therefore is enforceable against the Tribe.
    The second issue with the easement is actually an issue between the 
County and the Tribe regarding responsibility for maintenance of the 
internal roads running through the Camp 4 property. These internal 
roads represent almost 21 acres of impacted land within Camp 4. While 
there may be some issue as to whether these are County roads or Tribal 
roads, the Tribe has decided to take this issue off the table by 
assuming the responsibility of maintaining the roads through their 
property. There are no private property interests affiliated with this 
easement.

 RESOLUTION NO. 79-302--RESOLUTION OF THE BOARD OF SUPERVISORS OF THE 
              COUNTY OF SANTA BARBARA, STATE OF CALIFORNIA
       a resolution implementing subsection (b) of section 10-21 
(modifications) of the santa barbara county code by designating an old 
 ``townlot'' subdivision near the town of santa ynez in the county of 
santa barbara as having present or anticipated flooding, drainage, road 
access, domestic water, wastewater disposal and location problems, and 
      hereby delineating the same as a ``special problems area''.
    WITH REFERENCE TO THE FOLLOWING:
    A. The Board of Supervisors of the County of Santa Barbara has 
amended Subsection (b) of Section 10-21 (Modifications) of the Santa 
Barbara County Code which amends Subsection (a) of section 302 of Page 
30 of the Uniform Building Coder 1976 Edition, to provide for 
designating certain areas as ``Special Problem Areas'' on maps to be 
kept by the Development DivisTon of the County Department of Public 
works, which areas have present or anticipated flooding, drainage, 
grading, access, road width, sewage disposal, water supply location or 
elevation problems.
    B. Grading riders shall not be issued for requested building 
permits in such ``Special Problem Areas'' unless and until plans and 
specifications for the proposed buildings or structures have been 
reviewed by the Santa Barbara County ``Special Problems Committee'' and 
any and all reasonable and necessary conditions have been imposed as 
conditions of approval of said building permit application, as provided 
in said amended Section 302.
    NOW, THEREFORE, IT IS RESOLVED as follows:
    1. The unincorporated area near the township of Santa Ynez, of the 
County of Santa Barbara as delineated on a map, a copy of which is 
attached to this Resolution \1\ and by this reference made a part 
hereof, is an area having present or anticipated flooding, drainage, 
road width, domestic water. and wastewater disposal and location as to 
fire hazard problems and is hereby delineated as a ``Special Problems 
Area'' all as provided in and for the purposes of Subsection (b) of 
Section 10-21 (Modifications) of the Santa Barbara County Code.
---------------------------------------------------------------------------
    \1\ The map referred to has been retained in the Committee files.
---------------------------------------------------------------------------
    2. The said attached map of the said ``Special Problems Area'' is a 
true and correct copy thereof and is hereby ordered to be kept by the 
Development Division of the County Department of Public Works to be 
used as provided in said Subsection (b) of said Section 10-21 of the 
Santa Barbara County Code.
    3. Copies of this Resolution shall be forwarded by the Clerk of the 
Board of Supervisors to the Director of Public Works; the Flood Control 
Engineer; the Transportation Director and Road Commissioner; the 
Director of County Health Services, the County Fire Department, and the 
County Counsel.
    PASSED and ADOPTED by the Board of Supervisors of the County of 
Santa Barbara, State of California, this 21st day of May, 1979.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
